<html>
<title> - CONTACTS BETWEEN NORTHROP GRUMMAN CORPORATION AND THE WHITE HOUSE REGARDING MISSING WHITE HOUSE E-MAILS</title>
<body><pre>[House Hearing, 106 Congress]
[From the U.S. Government Printing Office]




   CONTACTS BETWEEN NORTHROP GRUMMAN CORPORATION AND THE WHITE HOUSE 
                 REGARDING MISSING WHITE HOUSE E-MAILS

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED SIXTH CONGRESS

                             SECOND SESSION

                               __________

                           SEPTEMBER 26, 2000

                               __________

                           Serial No. 106-258

                               __________

       Printed for the use of the Committee on Government Reform


  Available via the World Wide Web: http://www.gpo.gov/congress/house
                      http://www.house.gov/reform

                               __________

                   U.S. GOVERNMENT PRINTING OFFICE
74-496                     WASHINGTON : 2001

_______________________________________________________________________
 For sale by the Superintendent of Documents, U.S. Government Printing 
                                 Office
Internet: bookstore.gpo.gov  Phone: (202) 512-1800  Fax: (202) 512-2250
               Mail: Stop SSOP, Washington, DC 20402-0001


                     COMMITTEE ON GOVERNMENT REFORM

                     DAN BURTON, Indiana, Chairman
BENJAMIN A. GILMAN, New York         HENRY A. WAXMAN, California
CONSTANCE A. MORELLA, Maryland       TOM LANTOS, California
CHRISTOPHER SHAYS, Connecticut       ROBERT E. WISE, Jr., West Virginia
ILEANA ROS-LEHTINEN, Florida         MAJOR R. OWENS, New York
JOHN M. McHUGH, New York             EDOLPHUS TOWNS, New York
STEPHEN HORN, California             PAUL E. KANJORSKI, Pennsylvania
JOHN L. MICA, Florida                PATSY T. MINK, Hawaii
THOMAS M. DAVIS, Virginia            CAROLYN B. MALONEY, New York
DAVID M. McINTOSH, Indiana           ELEANOR HOLMES NORTON, Washington, 
MARK E. SOUDER, Indiana                  DC
JOE SCARBOROUGH, Florida             CHAKA FATTAH, Pennsylvania
STEVEN C. LaTOURETTE, Ohio           ELIJAH E. CUMMINGS, Maryland
MARSHALL ``MARK'' SANFORD, South     DENNIS J. KUCINICH, Ohio
    Carolina                         ROD R. BLAGOJEVICH, Illinois
BOB BARR, Georgia                    DANNY K. DAVIS, Illinois
DAN MILLER, Florida                  JOHN F. TIERNEY, Massachusetts
ASA HUTCHINSON, Arkansas             JIM TURNER, Texas
LEE TERRY, Nebraska                  THOMAS H. ALLEN, Maine
JUDY BIGGERT, Illinois               HAROLD E. FORD, Jr., Tennessee
GREG WALDEN, Oregon                  JANICE D. SCHAKOWSKY, Illinois
DOUG OSE, California                             ------
PAUL RYAN, Wisconsin                 BERNARD SANDERS, Vermont 
HELEN CHENOWETH-HAGE, Idaho              (Independent)
DAVID VITTER, Louisiana


                      Kevin Binger, Staff Director
                 Daniel R. Moll, Deputy Staff Director
                     James C. Wilson, Chief Counsel
                        Robert A. Briggs, Clerk
                 Phil Schiliro, Minority Staff Director


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on September 26, 2000...............................     1
Statement of:
    Gershel, Alan, Deputy Assistant Attorney General, U.S. 
      Department of Justice......................................   242
Letters, statements, etc., submitted for the record by:
    Burton, Hon. Dan, a Representative in Congress from the State 
      of Indiana:
        Exhibit 10...............................................   250
        Exhibits relevant to hearing.............................     2
        Prepared statement of....................................   197
    Chenoweth-Hage, Hon. Helen, a Representative in Congress from 
      the State of Idaho, prepared statement of..................   288
    Ford, Hon. Harold E., a Representative in Congress from the 
      State of Tennessee, letter dated April 13, 1999............   260
    Gershel, Alan, Deputy Assistant Attorney General, U.S. 
      Department of Justice, prepared statement of...............   245
    Waxman, Hon. Henry A., a Representative in Congress from the 
      State of California, letter dated September 26, 2000.......   215

 
   CONTACTS BETWEEN NORTHROP GRUMMAN CORPORATION AND THE WHITE HOUSE 
                 REGARDING MISSING WHITE HOUSE E-MAILS

                              ----------                              


                      TUESDAY, SEPTEMBER 26, 2000

                          House of Representatives,
                            Committee on Government Reform,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 3:10 p.m., in 
room 2154, Rayburn House Office Building, Hon. Dan Burton 
(chairman of the committee) presiding.
    Present: Representatives Burton, Gilman, Ros-Lehtinen, 
Horn, Barr, Waxman, Norton, Cummings, Kucinich, and Ford.
    Staff present: Kevin Binger, staff director; James C. 
Wilson, chief counsel; David A. Kass, deputy counsel and 
parliamentarian; Sean Spicer, director of communications; Josie 
Duckett, deputy communications director; M. Scott Billingsley 
and James J. Schumann, counsels; Pablo Carrillo and Jason 
Foster, investigative counsels; Robert Briggs, clerk; Robin 
Butler, office manager, Michael Canty, legislative assistant; 
Leneal Scott, computer systems manager; John Sare, staff 
assistant; Maria Tamburri, assistant to chief counsel; Corinne 
Zaccagnini, systems administrator; Phil Schiliro, minority 
staff director; Phil Barnett, minority chief counsel; Kristin 
Amerling, minority deputy chief counsel; Paul Weinberger, 
minority counsel; Michael Yeager, minority senior oversight 
counsel; Ellen Rayner, minority chief clerk; Jean Gosa and 
Earley Green, minority assistant clerks; and Tersa Coufal, 
minority staff assistant.
    Mr. Burton. Good afternoon. A quorum being present the 
Committee on Government Reform will come to order.
    I ask unanimous consent that all Members and witnesses' 
written opening statements be included in the record and 
without objection, so ordered.
    I ask unanimous consent that all articles, exhibits and 
extraneous or tabular material referred to be included in the 
record and without objection, so ordered.
    I ask unanimous consent that a set of exhibits shared with 
the minority staff prior to the hearing be included in the 
record. Without objection, so ordered.
    Mr. Waxman. Reserving the right to object. Yes--withdrawn.
    [The information referred to follows:]

    [GRAPHIC] [TIFF OMITTED] T4496.001
    
    [GRAPHIC] [TIFF OMITTED] T4496.002
    
    [GRAPHIC] [TIFF OMITTED] T4496.003
    
    [GRAPHIC] [TIFF OMITTED] T4496.004
    
    [GRAPHIC] [TIFF OMITTED] T4496.005
    
    [GRAPHIC] [TIFF OMITTED] T4496.006
    
    [GRAPHIC] [TIFF OMITTED] T4496.007
    
    [GRAPHIC] [TIFF OMITTED] T4496.008
    
    [GRAPHIC] [TIFF OMITTED] T4496.009
    
    [GRAPHIC] [TIFF OMITTED] T4496.010
    
    [GRAPHIC] [TIFF OMITTED] T4496.011
    
    [GRAPHIC] [TIFF OMITTED] T4496.012
    
    [GRAPHIC] [TIFF OMITTED] T4496.013
    
    [GRAPHIC] [TIFF OMITTED] T4496.014
    
    [GRAPHIC] [TIFF OMITTED] T4496.015
    
    [GRAPHIC] [TIFF OMITTED] T4496.016
    
    [GRAPHIC] [TIFF OMITTED] T4496.017
    
    [GRAPHIC] [TIFF OMITTED] T4496.018
    
    [GRAPHIC] [TIFF OMITTED] T4496.019
    
    [GRAPHIC] [TIFF OMITTED] T4496.020
    
    [GRAPHIC] [TIFF OMITTED] T4496.021
    
    [GRAPHIC] [TIFF OMITTED] T4496.022
    
    [GRAPHIC] [TIFF OMITTED] T4496.023
    
    [GRAPHIC] [TIFF OMITTED] T4496.024
    
    [GRAPHIC] [TIFF OMITTED] T4496.025
    
    [GRAPHIC] [TIFF OMITTED] T4496.026
    
    [GRAPHIC] [TIFF OMITTED] T4496.027
    
    [GRAPHIC] [TIFF OMITTED] T4496.028
    
    [GRAPHIC] [TIFF OMITTED] T4496.029
    
    [GRAPHIC] [TIFF OMITTED] T4496.030
    
    [GRAPHIC] [TIFF OMITTED] T4496.031
    
    [GRAPHIC] [TIFF OMITTED] T4496.032
    
    [GRAPHIC] [TIFF OMITTED] T4496.033
    
    [GRAPHIC] [TIFF OMITTED] T4496.034
    
    [GRAPHIC] [TIFF OMITTED] T4496.035
    
    [GRAPHIC] [TIFF OMITTED] T4496.036
    
    [GRAPHIC] [TIFF OMITTED] T4496.037
    
    [GRAPHIC] [TIFF OMITTED] T4496.038
    
    [GRAPHIC] [TIFF OMITTED] T4496.039
    
    [GRAPHIC] [TIFF OMITTED] T4496.040
    
    [GRAPHIC] [TIFF OMITTED] T4496.041
    
    [GRAPHIC] [TIFF OMITTED] T4496.042
    
    [GRAPHIC] [TIFF OMITTED] T4496.043
    
    [GRAPHIC] [TIFF OMITTED] T4496.044
    
    [GRAPHIC] [TIFF OMITTED] T4496.045
    
    [GRAPHIC] [TIFF OMITTED] T4496.046
    
    [GRAPHIC] [TIFF OMITTED] T4496.047
    
    [GRAPHIC] [TIFF OMITTED] T4496.048
    
    [GRAPHIC] [TIFF OMITTED] T4496.049
    
    [GRAPHIC] [TIFF OMITTED] T4496.050
    
    [GRAPHIC] [TIFF OMITTED] T4496.051
    
    [GRAPHIC] [TIFF OMITTED] T4496.052
    
    [GRAPHIC] [TIFF OMITTED] T4496.053
    
    [GRAPHIC] [TIFF OMITTED] T4496.054
    
    [GRAPHIC] [TIFF OMITTED] T4496.055
    
    [GRAPHIC] [TIFF OMITTED] T4496.056
    
    [GRAPHIC] [TIFF OMITTED] T4496.057
    
    [GRAPHIC] [TIFF OMITTED] T4496.058
    
    [GRAPHIC] [TIFF OMITTED] T4496.059
    
    [GRAPHIC] [TIFF OMITTED] T4496.060
    
    [GRAPHIC] [TIFF OMITTED] T4496.061
    
    [GRAPHIC] [TIFF OMITTED] T4496.062
    
    [GRAPHIC] [TIFF OMITTED] T4496.063
    
    [GRAPHIC] [TIFF OMITTED] T4496.064
    
    [GRAPHIC] [TIFF OMITTED] T4496.065
    
    [GRAPHIC] [TIFF OMITTED] T4496.066
    
    [GRAPHIC] [TIFF OMITTED] T4496.067
    
    [GRAPHIC] [TIFF OMITTED] T4496.068
    
    [GRAPHIC] [TIFF OMITTED] T4496.069
    
    [GRAPHIC] [TIFF OMITTED] T4496.070
    
    [GRAPHIC] [TIFF OMITTED] T4496.071
    
    [GRAPHIC] [TIFF OMITTED] T4496.072
    
    [GRAPHIC] [TIFF OMITTED] T4496.073
    
    [GRAPHIC] [TIFF OMITTED] T4496.074
    
    [GRAPHIC] [TIFF OMITTED] T4496.075
    
    [GRAPHIC] [TIFF OMITTED] T4496.076
    
    [GRAPHIC] [TIFF OMITTED] T4496.077
    
    [GRAPHIC] [TIFF OMITTED] T4496.078
    
    [GRAPHIC] [TIFF OMITTED] T4496.079
    
    [GRAPHIC] [TIFF OMITTED] T4496.080
    
    [GRAPHIC] [TIFF OMITTED] T4496.081
    
    [GRAPHIC] [TIFF OMITTED] T4496.082
    
    [GRAPHIC] [TIFF OMITTED] T4496.083
    
    [GRAPHIC] [TIFF OMITTED] T4496.084
    
    [GRAPHIC] [TIFF OMITTED] T4496.085
    
    [GRAPHIC] [TIFF OMITTED] T4496.086
    
    [GRAPHIC] [TIFF OMITTED] T4496.087
    
    [GRAPHIC] [TIFF OMITTED] T4496.088
    
    [GRAPHIC] [TIFF OMITTED] T4496.089
    
    [GRAPHIC] [TIFF OMITTED] T4496.090
    
    [GRAPHIC] [TIFF OMITTED] T4496.091
    
    [GRAPHIC] [TIFF OMITTED] T4496.092
    
    [GRAPHIC] [TIFF OMITTED] T4496.093
    
    [GRAPHIC] [TIFF OMITTED] T4496.094
    
    [GRAPHIC] [TIFF OMITTED] T4496.095
    
    [GRAPHIC] [TIFF OMITTED] T4496.096
    
    [GRAPHIC] [TIFF OMITTED] T4496.097
    
    [GRAPHIC] [TIFF OMITTED] T4496.098
    
    [GRAPHIC] [TIFF OMITTED] T4496.099
    
    [GRAPHIC] [TIFF OMITTED] T4496.100
    
    [GRAPHIC] [TIFF OMITTED] T4496.101
    
    [GRAPHIC] [TIFF OMITTED] T4496.102
    
    [GRAPHIC] [TIFF OMITTED] T4496.103
    
    [GRAPHIC] [TIFF OMITTED] T4496.104
    
    [GRAPHIC] [TIFF OMITTED] T4496.105
    
    [GRAPHIC] [TIFF OMITTED] T4496.106
    
    [GRAPHIC] [TIFF OMITTED] T4496.107
    
    [GRAPHIC] [TIFF OMITTED] T4496.108
    
    [GRAPHIC] [TIFF OMITTED] T4496.109
    
    [GRAPHIC] [TIFF OMITTED] T4496.110
    
    [GRAPHIC] [TIFF OMITTED] T4496.111
    
    [GRAPHIC] [TIFF OMITTED] T4496.112
    
    [GRAPHIC] [TIFF OMITTED] T4496.113
    
    [GRAPHIC] [TIFF OMITTED] T4496.114
    
    [GRAPHIC] [TIFF OMITTED] T4496.115
    
    [GRAPHIC] [TIFF OMITTED] T4496.116
    
    [GRAPHIC] [TIFF OMITTED] T4496.117
    
    [GRAPHIC] [TIFF OMITTED] T4496.118
    
    [GRAPHIC] [TIFF OMITTED] T4496.119
    
    [GRAPHIC] [TIFF OMITTED] T4496.120
    
    [GRAPHIC] [TIFF OMITTED] T4496.121
    
    [GRAPHIC] [TIFF OMITTED] T4496.122
    
    [GRAPHIC] [TIFF OMITTED] T4496.123
    
    [GRAPHIC] [TIFF OMITTED] T4496.124
    
    [GRAPHIC] [TIFF OMITTED] T4496.125
    
    [GRAPHIC] [TIFF OMITTED] T4496.126
    
    [GRAPHIC] [TIFF OMITTED] T4496.127
    
    [GRAPHIC] [TIFF OMITTED] T4496.128
    
    [GRAPHIC] [TIFF OMITTED] T4496.129
    
    [GRAPHIC] [TIFF OMITTED] T4496.130
    
    [GRAPHIC] [TIFF OMITTED] T4496.131
    
    [GRAPHIC] [TIFF OMITTED] T4496.132
    
    [GRAPHIC] [TIFF OMITTED] T4496.133
    
    [GRAPHIC] [TIFF OMITTED] T4496.134
    
    [GRAPHIC] [TIFF OMITTED] T4496.135
    
    [GRAPHIC] [TIFF OMITTED] T4496.136
    
    [GRAPHIC] [TIFF OMITTED] T4496.137
    
    [GRAPHIC] [TIFF OMITTED] T4496.138
    
    [GRAPHIC] [TIFF OMITTED] T4496.139
    
    [GRAPHIC] [TIFF OMITTED] T4496.140
    
    [GRAPHIC] [TIFF OMITTED] T4496.141
    
    [GRAPHIC] [TIFF OMITTED] T4496.142
    
    [GRAPHIC] [TIFF OMITTED] T4496.143
    
    [GRAPHIC] [TIFF OMITTED] T4496.144
    
    [GRAPHIC] [TIFF OMITTED] T4496.145
    
    [GRAPHIC] [TIFF OMITTED] T4496.146
    
    [GRAPHIC] [TIFF OMITTED] T4496.147
    
    [GRAPHIC] [TIFF OMITTED] T4496.148
    
    [GRAPHIC] [TIFF OMITTED] T4496.149
    
    [GRAPHIC] [TIFF OMITTED] T4496.150
    
    [GRAPHIC] [TIFF OMITTED] T4496.151
    
    [GRAPHIC] [TIFF OMITTED] T4496.152
    
    [GRAPHIC] [TIFF OMITTED] T4496.153
    
    [GRAPHIC] [TIFF OMITTED] T4496.154
    
    [GRAPHIC] [TIFF OMITTED] T4496.155
    
    [GRAPHIC] [TIFF OMITTED] T4496.156
    
    [GRAPHIC] [TIFF OMITTED] T4496.157
    
    [GRAPHIC] [TIFF OMITTED] T4496.158
    
    [GRAPHIC] [TIFF OMITTED] T4496.159
    
    [GRAPHIC] [TIFF OMITTED] T4496.160
    
    [GRAPHIC] [TIFF OMITTED] T4496.161
    
    [GRAPHIC] [TIFF OMITTED] T4496.162
    
    [GRAPHIC] [TIFF OMITTED] T4496.163
    
    [GRAPHIC] [TIFF OMITTED] T4496.164
    
    [GRAPHIC] [TIFF OMITTED] T4496.165
    
    [GRAPHIC] [TIFF OMITTED] T4496.166
    
    [GRAPHIC] [TIFF OMITTED] T4496.167
    
    [GRAPHIC] [TIFF OMITTED] T4496.168
    
    [GRAPHIC] [TIFF OMITTED] T4496.169
    
    [GRAPHIC] [TIFF OMITTED] T4496.170
    
    [GRAPHIC] [TIFF OMITTED] T4496.171
    
    [GRAPHIC] [TIFF OMITTED] T4496.172
    
    [GRAPHIC] [TIFF OMITTED] T4496.173
    
    [GRAPHIC] [TIFF OMITTED] T4496.174
    
    [GRAPHIC] [TIFF OMITTED] T4496.175
    
    [GRAPHIC] [TIFF OMITTED] T4496.176
    
    [GRAPHIC] [TIFF OMITTED] T4496.177
    
    [GRAPHIC] [TIFF OMITTED] T4496.178
    
    [GRAPHIC] [TIFF OMITTED] T4496.179
    
    [GRAPHIC] [TIFF OMITTED] T4496.180
    
    [GRAPHIC] [TIFF OMITTED] T4496.181
    
    [GRAPHIC] [TIFF OMITTED] T4496.182
    
    [GRAPHIC] [TIFF OMITTED] T4496.183
    
    [GRAPHIC] [TIFF OMITTED] T4496.184
    
    [GRAPHIC] [TIFF OMITTED] T4496.185
    
    [GRAPHIC] [TIFF OMITTED] T4496.186
    
    [GRAPHIC] [TIFF OMITTED] T4496.187
    
    [GRAPHIC] [TIFF OMITTED] T4496.188
    
    [GRAPHIC] [TIFF OMITTED] T4496.189
    
    [GRAPHIC] [TIFF OMITTED] T4496.190
    
    [GRAPHIC] [TIFF OMITTED] T4496.191
    
    [GRAPHIC] [TIFF OMITTED] T4496.192
    
    [GRAPHIC] [TIFF OMITTED] T4496.193
    
    [GRAPHIC] [TIFF OMITTED] T4496.194
    
    Mr. Burton. I also ask unanimous consent that questioning 
in the matter under consideration proceed under clause 2(j)2 of 
House rule 11 and committee rule 14, in which the chairman and 
ranking minority member allocate time to committee counsel as 
they deem appropriate for extended questioning, not to exceed 
60 minutes divided equally between the majority and minority 
and without objection, so ordered.
    Seven months ago--and I'd like to say to my colleague Mr. 
Waxman, this is a little bit lengthy, this opening statement, 
but I think it's necessary in order to cover everything. So 
we'll allow you whatever time you need.
    [The prepared statement of Hon. Dan Burton follows:]

    [GRAPHIC] [TIFF OMITTED] T4496.195
    
    [GRAPHIC] [TIFF OMITTED] T4496.196
    
    [GRAPHIC] [TIFF OMITTED] T4496.197
    
    [GRAPHIC] [TIFF OMITTED] T4496.198
    
    [GRAPHIC] [TIFF OMITTED] T4496.199
    
    [GRAPHIC] [TIFF OMITTED] T4496.200
    
    [GRAPHIC] [TIFF OMITTED] T4496.201
    
    [GRAPHIC] [TIFF OMITTED] T4496.202
    
    [GRAPHIC] [TIFF OMITTED] T4496.203
    
    Mr. Waxman. If you would permit, there was an item that you 
went by quickly. I just wanted to put on the record. You asked 
unanimous consent for all documents referred to to be made 
public, and I generally have no objection to that, but there 
are some exhibits that I understand the majority wishes to 
release publicly today. These are exhibits 6 through 14. 
They're documents provided to the committee in response to a 
request for grand jury subpoenas and other documents relating 
to evidence the Department of Justice's Campaign Finance Task 
Force has gathered.
    The committee, however, received a letter from the 
Department of Justice yesterday objecting to the recent 
practice by the committee of subpoenaing the subpoenas, which 
resulted in the production of these documents. According to the 
Department of Justice, this practice could undermine effective 
law enforcement by creating a substantial risk that sensitive 
and confidential investigative information will be disclosed to 
targets of investigations and to other persons who might use 
the information to thwart our law enforcement efforts. That was 
what they said.
    I am also concerned that the committee's actions could 
undermine important grand jury secrecy requirements. There may 
be situations where the reasons for release of grand jury 
materials by a committee would be so compelling as to outweigh 
the potential harm to ongoing investigations. However, I am not 
currently aware of a compelling reason to release these 
documents today.
    The minority received notice of the majority's interest in 
releasing these documents just a few hours before today's 
hearing. I have not had the opportunity to discuss with the 
Department of Justice their concerns about the committee's 
practice or assess the merits of such concerns in relation to 
the need to release these documents today. Therefore, I would 
hope that when you talked about documents, you weren't 
referring to these documents, and that we're not going to make 
these documents public.
    Mr. Burton. Mr. Waxman, excuse me 1 second. There are 
several facts that must be pointed out in response to Mr. 
Waxman's objection. As he pointed out, the Justice Department 
has objected to the committee's recent practice of subpoenaing 
subpoenas which are issued by the Campaign Financing Task 
Force. Why is the Justice Department objecting? It's pretty 
simple. They're embarrassed.
    At a hearing on July 20th, we pointed out that the Justice 
Department had never subpoenaed information on Maria Hsia from 
the White House. It waited 3 years to get information on Mark 
Middleton and Ernie Green. Those facts are embarrassing, and 
the Justice Department doesn't want the committee or the public 
to find out about that.
    Second, Mr. Waxman has objected to the release of three 
sets of documents. Two of them don't even seem to have any 
relation to the Justice Department's arguments. One set of the 
documents is correspondence between Tony Barry's lawyers and 
the task force. There isn't any substantive information about 
the investigation in those documents. The second set of 
documents are letters and subpoenas issued by the task force to 
the State Department. Every piece of sensitive information in 
those documents has already been redacted by the Justice 
Department.
    Mr. Waxman's objection to the unanimous consent is heard 
and we will not release those documents today in accordance 
with your objection. I would like to move to release it but I 
think we'd have to call everybody from the floor here and we'd 
be here for some time waiting to get the votes. So we'll deal 
with that at some future date.
    Mr. Waxman. Thank you, Mr. Chairman.
    Mr. Burton. Seven months ago, the Washington Times reported 
that the White House covered up--and as I said, I don't know if 
you heard me, Henry, but this is a fairly lengthy statement, 
and I apologize for that, but we have a lot we have to cover 
here before we get to the questioning, but we'll allow you 
whatever time you want and we'll be lenient with the rest of 
your committee members as well.
    Seven months ago the Washington Times reported that the 
White House covered up a problem with their e-mail records for 
over 2 years. As a result of the White House cover-up, 
information was kept from this committee, but not just this 
committee, but other committees of Congress, the Justice 
Department and various independent counsels.
    In March we had a number of witnesses who worked on the e-
mail system testify. Some told us they were threatened. One was 
told there was a jail cell with his name on it if he talked to 
anyone about the problem. Another said that she would rather be 
fired than go to jail for telling her own boss what she was 
working on. Employees were told they couldn't write things 
down. Notes of meetings were confiscated. People had to talk 
about the e-mail problem in a park or at a Starbucks restaurant 
near the office.
    The problem was brought to the attention of high level 
political appointees. The Office of Administration general 
counsel was informed. An assistant to the President was told 
about the problem. The President's deputy chief of staff, one 
of his main scandal managers, was brought into the loop. The 
counsel to the President was even briefed.
    And then nothing happened for months. The main problem 
never got fixed. Congress was never told. The Justice 
Department was not told. The various independent counsels were 
not told.
    When we subpoenaed documents, we found out that the lower 
level employees were begging for help, that they couldn't get 
any direction from their bosses in the White House. The problem 
was covered up. Nearly 2 years went by before the White House 
counsel told us that they hadn't complied with the committee 
subpoenas. Even after the first newspaper article about the 
problem appeared, the counsel to the President didn't let on 
there was a problem. They only reason they ever informed us was 
because we started interviewing people and finding out how 
extensive the problem was. Even now after the first batch of 
reconstructed e-mails was produced late last Friday, the White 
House is spinning and stalling.
    We all make mistakes, but week in and week out, this 
administration and its leaders look the public in the eye and 
make things up. I called today's hearing because the cover-up 
mentality in the White House counsel's office and the 
Department of Justice has not changed. We needed to get answers 
to important questions and we were getting the runaround. The 
administration is trying to run out the clock. We've got an 
election coming up. We can't get the White House to answer 
simple questions. We can't get the Justice Department to answer 
simple questions. I didn't really want to even have a hearing 
today, but as usual, we can't get anyone to answer the simplest 
of questions unless I notice a hearing and send out the 
subpoenas, and that's why we have to send out these subpoenas.
    Then we start to get a little bit of movement. I shouldn't 
have to subpoena witnesses to get them to answer simple 
questions. It really is disappointing. At least none of the e-
mail witnesses have fled the country like so many in the 
campaign finance investigation, at least not yet.
    Before we get to Mr. Gershel, I want to talk about two 
witnesses who had to be subpoenaed before they would cooperate. 
White House Counsel Beth Nolan and Washington lawyer Earl 
Silbert. Yesterday, Mr. Silbert came in for an interview, and 
today, Ms. Nolan promised to provide written answers to our 
questions. So I have postponed their appearances, but I do want 
to tell you why they were subpoenaed and what we've learned.
    Mr. Silbert is a highly respected Washington lawyer. He's a 
former U.S. attorney. He was a Watergate prosecutor. He 
represented President Clinton's former chief of staff, Erskine 
Bowles, during the Monica Lewinsky matter. He also represented 
Vice President Gore's friend, Peter Knight, during a 
congressional investigation. His clients have many reasons to 
be worried about what will come out when all the e-mails are 
reconstructed, which makes him a strange choice to represent 
the employees that were begging for help and telling their 
bosses that the White House was breaking the law by hiding the 
e-mails.
    Mr. Silbert came to the committee's attention because he 
was hired by Northrop Grumman after their employees were 
threatened. Until a week ago, when we got his law firm billing 
records, no one knew exactly what Mr. Silbert did for Northrop 
Grumman. His faulty memory and the refusal of his employer to 
waive attorney client privilege mean that we still don't know 
everything, but we do know an awful lot more.
    When we first asked Mr. Silbert to come in for an 
interview, he point blank refused, so I had to issue a 
subpoena. Yesterday, he finally made himself available for an 
interview, and this is what we learned. A couple of months 
after they were first threatened, three Northrop Grumman 
employees asked for a meeting with the company lawyer. This was 
an extraordinary meeting. The employees had never had one like 
it. They explained the problems that they faced. They talked 
about the threats. They explained they were told not to write 
anything down. They told company lawyers that they thought a 
quick reconstruction of the e-mails was required by law. And 
the company did something. They hired a high priced Washington 
lawyer, someone who was friendly with the White House counsel, 
Chuck Ruff, and who knew the scandal minders in the White 
House, Cheryl Mills and Lanny Breuer.
    Earl Silbert went to work. He talked to lawyers. He talked 
to one of the employees and then he called the White House, and 
I'll put the chronology up on the screen so everyone can take a 
look at it.
    September 9th, Northrop Grumman lawyer Joseph Lucente meets 
with Golas, Haas and Spriggs. They tell him about threats, 
express concern about document searches, tell him they can't 
write things down and say they have been prohibited from 
speaking to superiors. He feels they have been treated 
unfairly.
    Earl Silbert--September 11, 2 days later, Earl Silbert has 
a teleconference, has a teleconference with the Northrop 
Grumman counsel and Northrop Grumman employee.
    Same day, Earl Silbert has a teleconference with Northrop 
Grumman employees. September 12, he reviews the document. 
September 12, Earl Silbert has a teleconference with Northrop 
Grumman counsel. September 14, Joseph Lucente of Northrop 
Grumman sends a letter to Dave Helms at the White House 
notifying him of a dysfunction in the e-mail system which was 
detected in late May. In the letter, Lucente complains that 
Laura Crabtree was notified of the problem and kept Northrop 
Grumman management out of remedial action. The letter states 
that as a consequence, we are not proceeding with our efforts 
to remedy the dysfunction until we have received further 
contractual direction. September 15, Earl Silbert has 
teleconference with Northrop Grumman counsel. September 22, he 
has another conference with the Northrop Grumman counsel.
    As you can see, Mr. Silbert called the White House on 
September 28, 1998. We don't show that on there, do we yet? Oh, 
excuse me, and then the last one is Earl Silbert has a 
teleconference with the White House counsel. That was on 
September 28th. So as you can see, Mr. Silbert called the White 
House on September 28, 1998.
    That was at the height of the impeachment investigation. 
People were talking about a possible Presidential resignation. 
Do you think that the White House would take notice if they 
find out in the middle of an impeachment debate that they had a 
problem which meant that hundreds of thousands of e-mails had 
never been searched? You bet they would.
    Yesterday we asked Mr. Silbert about what happened. You can 
all guess what comes next. He told our staff that he didn't 
remember who he called or what he discussed. We've had an 
epidemic of memory loss in this town. Significant things, an 
absolute epidemic. I can't believe it. Must be something in the 
water.
    He didn't remember who called him or what he discussed or 
who he had called at the White House or what he had discussed. 
Imagine that. He hears a story about possible law breaking and 
threats to his client's employees and he doesn't even remember 
who he talked to at the White House. And he was careful enough 
not to write it down. That was his first interaction with the 
White House.
    A couple of months later, just before the Senate trial of 
the President started, an Insight Magazine article appeared 
that had the potential to upset the entire impeachment debate. 
It mentioned something going on in the White House called 
project X. It described what was going on with project X and 
how there were 100,000 e-mails that had been kept from 
investigators. Here's one quote from that story.
    ``So why hasn't the White House come clean and informed 
various panels and Starr of the discovery? Insiders say there's 
a lively debate going on involving a fair amount of legal hair 
splitting. Some folks in the West wing believe that unless 
subpoenaed, the White House doesn't have a duty to tell anyone 
about the irritating new batch of e-mails that have been 
discovered.''
    Right after this article came out, Earl Silbert was once 
again brought into the loop. He talked to Northrop Grumman 
counsel, and then he again called the White House counsel's 
office. Again, I will put the chronology up on the screen.
    October 9th, Earl Silbert has teleconference with Northrop 
Grumman counsel. December 11th, Joe Vasta of Northrop Grumman 
prepares a memo and notified the government about the Insight 
article about the e-mail problem. December 15th, Earl Silbert 
has a teleconference with Northrop Grumman counsel. December 
28th, official publication date of initial Insight article on 
computer glitch leads to trove of lost e-mails at the White 
House. And 2 days later, on December 30th, Earl Silbert has a 
teleconference with the White House counsel, according to his 
billing records.
    So yesterday, we asked Mr. Silbert who he talked to and 
what was discussed. Again, guess what happened? He couldn't 
remember a thing about who he talked to at the White House 
counsel's office, and he won't tell us anything about the other 
calls he had with Northrop Grumman lawyers because his client 
won't waive its legal privileges.
    Two major events in the e-mail matter. Two calls to the 
White House by a Washington superlawyer. It really makes you 
stop and think about Chuck Ruff's, the former counsel to the 
President's claim that there was a disconnect.
    At the time Mr. Silbert was brought into the loop, there 
were four major things going on in the White House e-mail 
problem. Employees had been threatened and they were 
frightened. Documents were being withheld from Congress and 
other investigators. The Northrop Grumman employees were saying 
that the White House might be breaking the law by failing to 
fix the e-mail problem. Computer people in the White House 
understood that the e-mail might be relevant to the impeachment 
debate and the campaign finance investigation.
    It's highly unlikely that Earl Silbert called the White 
House counsel's office to talk about the weather. The fact that 
a lawyer of Mr. Silbert's stature was hired at all suggests 
that Northrop Grumman understood that the problem was very 
significant. Silbert's two separate contacts with the White 
House casts even more doubt on the White House's claim that 
they weren't actively covering up the problem.
    The White House keeps telling us that they didn't 
understand the problem. They got a memo, they didn't understand 
it. They had a briefing, they didn't understand it. Earl 
Silbert called twice, they still didn't get it. Mark Lindsay 
went back to the White House counsel's office when another 
problem was discovered and they didn't understand that either. 
As one White House official told the committee, you would have 
to be an idiot not to understand that the problem affected the 
subpoena compliance.
    You really have to ask yourself, why is it that President 
Clinton's White House counsel's office manages to forget 
everything or be so stupid when it's really convenient?
    I sent a letter to Judge Lamberth today about the Silbert 
matter. Mr. Silbert's billing record makes it clear that one of 
his colleagues provided false information to a Federal court on 
two separate occasions. In Judge Lamberth's court, another 
Northrop Grumman lawyer testified that Mr. Silbert didn't have 
any contact with the White House about the missing e-mails. We 
know this isn't true. I know that Earl Silbert has a reputation 
for integrity. However, I find this entire incident very 
troubling. And I ask unanimous consent to include in the record 
a letter that we're talking about, that we sent to Judge 
Lambert. Without objection, so ordered.
    White House Counsel Beth Nolan was also scheduled to 
testify today. I issued the subpoena to her after trying to get 
answers to questions for months. It seems she only really 
focuses her attention on congressional requests when she is 
worried she'll have to explain herself before Congress. 
Yesterday we reached an accommodation with her. We agreed that 
if she answers the questions we put in a letter to her 
yesterday, then we would postpone her appearance, and I ask 
unanimous consent to include my letter to her dated September 
25th in the record and without objection, so ordered.
    I also ask unanimous consent to have her response included 
in the record when we receive it. And without objection, so 
ordered.
    The questions we have for Ms. Nolan are related to the 
campaign fundraising investigation. They go to a failure by the 
Justice Department to review evidence. So it is related to the 
White House e-mail investigation. Let me explain briefly.
    One of the questions that went unanswered for a very long 
time was whether the original videotape of the December 15, 
1995 White House coffee had been reviewed by the Justice 
Department. The White House had custody of the original tape, 
so that's why I asked the Justice Department if they had 
reviewed it or who had reviewed it.
    This is the tape where Indonesian gardener Arief 
Wiriadinata, who gave $455,000 to the Clinton Gore campaign, 
tells the President James Riady sent me. It is also the tape 
where the Vice President appears to tell Mr. Wiriadinata ``We 
oughta, we oughta, we oughta show Mr. Riady the tapes, some of 
the ad tapes,'' and someone else says, ``I'll see if I can do 
that.'' This statement came 4 days after Vice President Gore 
had shown copies of issue ad tapes to political contributors in 
Chicago.
    The Justice Department has so far failed to ask the Vice 
President one single question about this exchange. Why the Vice 
President of the United States would suggest showing political 
advertisements to someone who lived in Indonesia is a matter of 
some interest, particularly when it's James Riady, a man with 
extensive ties to the Chinese Government and someone who had 
promised to give the President a million dollars in illegal 
money during his 1992 campaign, and he ended up giving him we 
know $700,000 to $800,000 in illegal contributions that were 
returned.
    Did he want to show the tape to Riady for the same reason 
he had shown it to contributors in Chicago? Did he know that 
Riady had been contributing heavily? Are there contributions we 
don't know about that he was aware of?
    I asked the White House for months if the Justice 
Department had looked at or reviewed that original tape. The 
copies that were provided earlier are very poor and some of the 
audio is very difficult to hear. I could not get an answer. So 
once again, I had to notice a hearing just to get an answer to 
a simple question like that.
    Late last week the White House informed us that the Justice 
Department has not looked at these tapes since, ``a short 
period of time in October 1997.'' This delay can only be 
explained by a desire not to embarrass the Justice Department 
and to protect the Vice President from additional questioning.
    I have also been asking the Justice Department about this 
tape. We held a hearing in July with four senior Justice 
Department officials. We played the tape several times. We 
asked them if they wanted to examine the original tape and they 
would not respond. I know that they haven't examined the 
original because I have it. I subpoenaed it. I wrote to them on 
August 25th to ask if they wanted the tape. They did not 
respond. I wrote to them on September 7th if they wanted to 
look at the tape. No response. So I scheduled this hearing for 
today and I sent Mr. Gershel a subpoena to testify, and guess 
what, yesterday the Justice Department sent us a letter saying 
they want to see the tape. All you have to do is jump on this 
thing and bring it to the public, and then they will look at 
it. Once again, we have to embarrass the Justice Department to 
get them to do their job. So they're now going to look at the 
tape after we've been on this since literally who knows when.
    I am pleased that we have Mr. Gershel here today. When he 
was last here, I was critical that he had taken time away from 
his responsibilities supervising the Campaign Financing Task 
Force to be a lead prosecutor in the trial of Independent 
Counsel Starr's former spokesman, Charles Bakaly. I just 
couldn't understand how he had so much spare time on his hands. 
I also couldn't understand why he would send out such a message 
about the Attorney General's priorities. With all the criticism 
that the Justice Department's fundraising investigation has 
received, I question the judgment that would have Mr. Gershel 
get involved in a trial that involved one of former Independent 
Counsel Starr's staff.
    The Bakaly prosecution was one of the highest priorities of 
President Clinton's lawyers. To my way of thinking Mr. 
Gershel's decision to be a lead attorney in the Bakaly case 
sent the message that the Attorney General put a higher 
priority on doing something that the President and his lawyers 
wanted than on the investigation of the President and the Vice 
President.
    Today we'll ask Mr. Gershel questions about the Justice 
Department criminal investigation of the White House e-mail 
matter. We have provided Mr. Gershel some of the questions in 
advance so he should be prepared. We will stay away from asking 
substantive questions about the investigation. Instead, we will 
try to focus on the effort that's being put into the 
investigation.
    I'd also like to learn a little bit more about the White 
House e-mails produced to the committee last Friday. I'd like 
to know when they were produced to the Justice Department. Just 
over a month ago, the Attorney General rejected Robert 
Conrad's, the head of the task force, and she's rejected I 
think almost every head of the task force recommendations, but 
she rejected his task force recommendation to appoint a special 
counsel to investigate the Vice President for perjury. The 
Attorney General was very clear in her rejection, as she has 
been in other cases. She says, I have concluded there is no 
reasonable possibility that further investigation could develop 
evidence that would support the filing of charges for making a 
willful false statement. And yet, she hadn't even looked at 
these tapes.
    Did the Justice Department have these latest e-mails when 
she made that statement? These e-mails have been under subpoena 
for 3\1/2\ years, and they are just now being turned over us to 
by the White House, 3\1/2\ years late. That's disgraceful. Let 
me read just a couple of these.
    We have an e-mail from the Vice President's office from 
April 9, 1996, 20 days before he went to the Hsi Lai Temple 
event. The staffer for the Vice President says, ``We committed 
in San Jose and L.A. for fundraising events.'' Then the Vice 
President's itinerary is attached. There's exactly one event on 
the schedule for Los Angeles, the Hsi Lai Temple event, and the 
Vice President said he had no idea this was a fundraiser? Was 
he telling the truth? This e-mail has a bearing on that.
    We have an e-mail from April 23, 1996. Again, it's from the 
Vice President's office. The staffer says I do not remember 
asking, but I may have. These are FR copies, right? Now what 
does FR stand for? I don't think it stands for french roast 
coffees. Of course not. It means fundraising coffees, and the 
President and the Vice President said the coffees were not 
fundraisers. Were they telling the truth? This e-mail has a 
bearing on that.
    We have another e-mail directly to the Vice President from 
February 1996. Carter Eskew, the campaign ad man, wants to be 
able to send an e-mail to the Vice President, but they don't 
want it to be archived. They don't want it in the archives. It 
says, ``The only way not to have your e-mails backed up on 
government computers would be to get a Clinton Gore computer in 
your office and set it up for private e-mails.'' I'd like to 
know if that was done.
    So should the Justice Department. Why did they not want 
these things archived, these e-mails? Supposed to be, all of 
them supposed to be, but they specifically did not want it 
done. So should the Justice Department want to know this?
    These are just a few examples of why this e-mail 
investigation is so important. It really is a question of 
whether obstruction of justice was committed. And I want to 
bring attention to anyone who's interested back to the 
Watergate tapes. We had just a few minutes of missing tape and 
ended up being one of the main reasons that a President was 
brought down, and here we have hundreds of thousands of e-mails 
that have been kept from the public and every committee for 3 
years. They were subpoenaed a long time ago and the Justice 
Department apparently hasn't been doing anything to really 
force the issue.
    Mr. Gershel should be able to tell us when the Attorney 
General and her advisers got the information that we received 
on Friday. I think that's a very important question, and I'd 
like to have an answer.
    I now yield to Mr. Waxman for his statement.
    Mr. Waxman. Usually when Congress gets together to have a 
hearing, we try to get facts, and from those facts try to 
figure out what happened. What we have in this committee is an 
extensive statement of a theory by the chairman which 
invariably involves a conspiracy. Everybody is in this 
conspiracy who's a Democrat or who worked for the government or 
who might have some evidence that doesn't fit the theory that 
the chairman is proposing.
    What we have just heard from Mr. Burton was a bunch of 
sensational allegations. The reason he has to give an extensive 
statement of sensational allegations is because the facts don't 
fit those allegations. He simply puts them out there and hopes 
that maybe in stating a lot of sensational allegations, 
something may stick. Well that's not an oversight hearing. 
That's a--I guess in a campaign, a political effort to smear.
    Now when we got the memo about what this hearing was all 
about, we looked at it and it was so wrong in its allegations 
and misleading and false statements that we wrote a letter to 
the chairman, and I want to make my letter to the chairman part 
of the record, and I ask unanimous consent to do that.
    Mr. Burton. Without objection. We have a response which 
we'd also like to put in the record. Without objection.
    [The information referred to follows:]

    [GRAPHIC] [TIFF OMITTED] T4496.204
    
    [GRAPHIC] [TIFF OMITTED] T4496.205
    
    [GRAPHIC] [TIFF OMITTED] T4496.206
    
    [GRAPHIC] [TIFF OMITTED] T4496.208
    
    [GRAPHIC] [TIFF OMITTED] T4496.209
    
    [GRAPHIC] [TIFF OMITTED] T4496.210
    
    [GRAPHIC] [TIFF OMITTED] T4496.211
    
    [GRAPHIC] [TIFF OMITTED] T4496.212
    
    [GRAPHIC] [TIFF OMITTED] T4496.213
    
    [GRAPHIC] [TIFF OMITTED] T4496.214
    
    [GRAPHIC] [TIFF OMITTED] T4496.215
    
    [GRAPHIC] [TIFF OMITTED] T4496.216
    
    [GRAPHIC] [TIFF OMITTED] T4496.217
    
    [GRAPHIC] [TIFF OMITTED] T4496.218
    
    [GRAPHIC] [TIFF OMITTED] T4496.219
    
    [GRAPHIC] [TIFF OMITTED] T4496.220
    
    [GRAPHIC] [TIFF OMITTED] T4496.221
    
    [GRAPHIC] [TIFF OMITTED] T4496.222
    
    [GRAPHIC] [TIFF OMITTED] T4496.223
    
    [GRAPHIC] [TIFF OMITTED] T4496.224
    
    [GRAPHIC] [TIFF OMITTED] T4496.225
    
    [GRAPHIC] [TIFF OMITTED] T4496.226
    
    [GRAPHIC] [TIFF OMITTED] T4496.227
    
    [GRAPHIC] [TIFF OMITTED] T4496.228
    
    [GRAPHIC] [TIFF OMITTED] T4496.229
    
    Mr. Waxman. I have no problem with that. I wrote a letter 
to set the record straight, and it points out that contrary to 
Mr. Burton's claim that several credible Northrop Grumman 
employees testified there was no jail threat, that these 
Northrop Grumman employees testified they were never impeded in 
their effort to fix the e-mail problem and that Mr. Burton's 
sensational speculation about Northrop Grumman's attorney Earl 
Silbert is just that, speculation. He doesn't have any 
knowledge of what Mr. Silbert had to say in private 
conversations with anybody, but because he doesn't know what 
Mr. Silbert said and Mr. Silbert said in an interview that he 
couldn't remember certain things, Mr. Burton then jumps to the 
conclusion that Mr. Silbert is part of this conspiracy. In 
fact, what he's doing is challenging Mr. Silbert and saying Mr. 
Silbert must be dishonest because what he had to say didn't fit 
the Burton theory.
    It used to be that we were accountable, Members of 
Congress, for what we said and did. We would admit our mistakes 
if we made mistakes. We would certainly try to avoid making new 
ones. But that's not the case on this committee. One hallmark 
of this committee's approach is to search for the missing piece 
of evidence. It seems no matter how much information is 
provided to the committee, and we've received millions of pages 
of documents and interviewed hundreds of witnesses at a cost of 
over $8 million of taxpayers' money, there's always something 
missing to justify another wild goose chase.
    And I want people to know, in our letter we pointed this 
out, that the committee held 4 days of hearings on this topic 
and that we're holding another one today about. This is going 
to be the fifth. We've already received testimony from 16 
people, 3 of whom each testified twice. Committee staff 
interviewed 35 people in connection with the e-mail 
investigation, and the committee requested and received 9,224 
pages of documents.
    So given all that's gone on regarding this effort, I am 
bewildered by the factual inaccuracies and omissions contained 
in the statement by the chairman today and the memorandum he 
sent to members of this committee on September 21st, and I 
think it's just hard to set the record straight, because 
there's no record as far as what we hear and the allegations. 
There's no factual statements or records or evidence to justify 
the speculation, the sensational charges. The idea is just to 
make the charges and hope they stick.
    Well, this is not new as I mentioned, in this committee and 
I prepared a report that I'd like to bring to everyone's 
attention, and I would hope that we could make it a part of the 
record. This report talks about the committee's endless pursuit 
of scandal, and I think that this report ought to be read by 
people who want to evaluate some of these charges. And if you 
want a record of the kind of charges that have been made, in 
order to evaluate the chairman's claims about the missing e-
mails, while we've had between 130,000 and 150,000 of the 
missing White House e-mails already reconstructed and reviewed, 
out of these 130,000 to 150,000 e-mails, only 55 had any 
relevance to this committee's investigation. Only 55 out of 
150,000. Out of those 55 e-mails, virtually none contained any 
new information. In fact, many had been provided in slightly 
different form to the committee or other investigators years 
ago.
    So I think that we ought to--generally it is a good idea to 
discount much of what Mr. Burton said in his statement. It is 
likely that the new allegations will be proven as groundless as 
the ones that have come before. If you are convinced that the 
Clinton administration is corrupt, as many of my Republican 
colleagues seem to be, our committee's endless pursuit of 
scandal may seem reasonable, but most Americans don't share 
this obsession.
    Their concerns are for providing a good education for their 
children, reducing the cost of prescription drugs for their 
parents, protecting the environment for their grandchildren, or 
paying down the national debt. To them we must seem incredibly 
out of touch, and they're absolutely right.
    I want people to know that in this document, which we are 
making part of the record, we just listed some of the 
incredible allegations that have been made over the last 4 
years by Republican leaders and Mr. Burton himself. Was Vince 
Foster murdered, for instance? Did the White House collect FBI 
files for dirty tricks? Did the Clinton administration sell 
secrets to the Chinese Government for campaign contributions? 
Did the White House engage in an abuse of power by using the 
IRS to retaliate against political enemies? Did John Huang 
really visit one of Mr. Burton's star witnesses, David Wang, 
and give him a paper bag filled with $10,000? Did they alter 
the video tapes to mislead Congress and the American people? 
Did the President create a national monument in Utah to help 
James Riady? Did Attorney General Janet Reno withhold Waco 
material from Congress? Did Webster Hubbell on a prison 
telephone actually say, ``The Riady is just not easy to do 
business with me while I am here?''
    These are only a sample of the wild allegations that have 
been made and more are in this report that my staff compiled, 
which I'm going to ask be made part of the record. These 
allegations have repeatedly been made and they have all been 
proved false by independent counsels, by the Senate, or at 
times, even this committee. When we did get actual information 
and evidence, these wild accusations turned out to be 
inaccurate, and I submit that the wild accusations serving as 
the basis for the committee hearing are also without any 
foundation in fact. They are simply wild speculations to make 
sensational allegations in hopes that somebody might believe 
them, and if anybody disagrees with them, it's not based on the 
facts, it must be they're also part of this conspiracy.
    So Mr. Chairman, I would ask unanimous consent that this 
report be made part of the record.
    Mr. Burton. Without objection.
    Mr. Waxman. I thank you for that and I guess we'll look 
forward to what Mr. Gershel has to say, but if he doesn't say 
what fits the theory, then I am sure that he must be subject to 
some harangue because what this committee wants, at least what 
the leader of this committee wants, is for witnesses to say 
what he wants them to say to fit his theories. I very much 
doubt we're going to get any more evidence today to 
substantiate the theories that have been advanced for which no 
other evidence has substantiated them.
    I yield back the balance of my time.
    Mr. Burton. Mr. Barr, did you have any comments? Any 
comments or----
    Mr. Ford. We can submit them to the record, right?
    Mr. Burton. Sure, without objection. Any comments?
    Mr. Horn.
    Mr. Horn. Thank you very much Mr. Chairman. I think you 
might have recalled the hearing on July 20th. That hearing we 
informed you that we had obtained the original videotape of the 
December 15, 1995 White House coffee. We explained that we 
believed that the tape contained a statement by the Vice 
President that, ``we oughta, we oughta, we oughta show Mr. 
Riady the tapes, some of the ad tapes,'' from the Vice 
President.
    Then someone says, ``I'll see if I can do that.''
    We explained the significance of that statement to the 
campaign finance investigation. We asked you if you wanted the 
original tape of that event. You refused to say whether you 
wanted it. We sent letters on July 18, 2000, and August 1, 
2000, and asking if you wanted to have the original videotape 
of the event, and we got no answer.
    Then yesterday, the day before this hearing, we got a 
letter from the Assistant Attorney General saying that the 
Justice Department wanted the tape. Why did it take so long for 
the Justice Department to ask for this tape?
    Let me round out some of this some more before you answer. 
As you will recall at the July 20, 2000 hearing, we pointed out 
the Justice Department's sources had told the press that they 
did not believe that the videotape of December 15, 1995, that 
coffee, contained this statement by the Vice President. We 
pointed out that the Justice Department didn't even have the 
original copy of the tape when the Department of Justice staff 
made those disparaging statements. That isn't new to us.
    Mr. Burton. Mr. Horn, we're making opening statements now. 
We haven't sworn the witness yet or started asking questions. 
Are you into the questions now?
    Mr. Horn. OK. Well, I will wait until everybodyis under 
oath.
    Mr. Burton. Well, I apologize. I thought everyone knew we 
were making opening statements, but if you have an opening 
statement you would like to make at this time, it's OK. Would 
you rather wait? OK. If there are no other opening statements, 
Mr. Gershel would you stand please.
    [Witness sworn.]
    Mr. Burton. Do you have a statement you'd like to make or 
just want to go to questions?

 STATEMENT OF ALAN GERSHEL, DEPUTY ASSISTANT ATTORNEY GENERAL, 
                   U.S. DEPARTMENT OF JUSTICE

    Mr. Gershel. Yes Mr. Chairman I have a brief statement if I 
might read, please.
    Mr. Burton. Proceed.
    Mr. Gershel. Good afternoon, Mr. Chairman and other members 
of the committee.
    I am Alan Gershel, a Deputy Assistant Attorney General in 
the Criminal Division, a position I have held since January 
2000. In that capacity, I have responsibility within the 
criminal division for supervising the Campaign Financing Task 
Force, the fraud section and the child exploitation and 
obscenity section.
    I am a career Federal prosecutor on detail from the U.S. 
attorney's office for the eastern District of Michigan where I 
serve as the First Assistant and Criminal Chief. In my 20 years 
as a Federal prosecutor, I have supervised or personally 
prosecuted hundreds of Federal criminal cases, including public 
corruption and white collar matters as well as a wide range of 
other Federal offenses.
    I am here today in response to the committee's subpoena. I 
understand from your recent letters, Mr. Chairman, that the 
committee has questions about matters relating to the Campaign 
Financing Task Force. I appreciate your identifying your 
questions in advance. I will do my best to address your 
concerns, but I am limited, as you know, by my ethical and 
professional responsibilities as a prosecutor in what I can say 
about pending criminal matters.
    With respect to task force staffing, you asked about the 
staffing levels on the Department's investigation of the White 
House e-mail matter. Although the Department has a longstanding 
policy of not disclosing staffing levels for particular pending 
criminal matters, I can assure you that the Attorney General 
regularly consults with Robert Conrad, the chief of the 
Campaign Financing Task Force, and I, to ensure that the task 
force has the resources it needs. Bob and I both believe that 
the task force currently has sufficient staff to handle the 
White House e-mail matter as well as its other 
responsibilities.
    I would also note that with respect to the White House e-
mail matter the task force and the office of the independent 
counsel are working together in a coordinated investigation. So 
it is not just the task force's resources that are involved.
    With respect to the committee's offer to turn over custody 
of the original videotape of the December 15, 1995 White House 
coffee, the Department yesterday sent Chairman Burton a letter 
accepting the committee's offer. We are always happy to receive 
information or other material that the committee believes may 
be relevant to an ongoing investigation. It would be 
inappropriate, however, for me to comment on whether the 
Department may have previously obtained the original videotape 
prior to it coming into the committee's possession.
    With respect to the committee's recent practice of 
subpoenaing other government agencies or third parties for copy 
of the task force's grand jury subpoenas and other 
investigative requests for information, the Department has 
expressed its concern to the committee in writing about the use 
of congressional subpoena power to shadow the Department's 
ongoing investigations. We believe that this practice could 
undermine pending investigations by creating a substantial risk 
that sensitive and confidential investigative information will 
be disclosed to targets of investigations and to other persons 
who might use the information to thwart our law enforcement 
efforts.
    We have also asked that the committee respect the executive 
branch's well-established third agency consultation practice, 
whereby an agency that receives a congressional or other 
request for documents or information that originated with 
another government agency consults with the originating agency 
before producing such documents or information. The committee 
has subpoenaed document requests and other information from the 
State Department and the commerce Department, some of which may 
relate to pending criminal matters. The task force and the FBI 
have been reviewing responsive documents gathered by these 
departments and where appropriate, redacting information to 
ensure that pending criminal matters are not compromised.
    This has been the Department's traditional approach when 
another executive branch agency is requested to produce 
documents that potentially implicate law enforcement interests. 
Our letter yesterday enclosed a letter documenting an example 
of the same approach being taken by the Department during the 
Bush administration. I would ask that our letter to the 
committee along with the enclosure be made a part of the 
record.
    You asked about the status of the Charles Duncan matter 
which was referred to the Department by the committee in 1997. 
The matter was closed because the Senate legal counsel's office 
refused to allow the FBI to interview a Senate staffer who was 
the critical witness in the alleged perjury.
    Finally, in your letter yesterday, Mr. Chairman, you asked 
a series of questions about the production of e-mails by the 
White House. Because your questions relate to pending criminal 
investigations being conducted by both the Department and the 
Office of the Independent Counsel, it would be inappropriate 
for me to comment on the evidence gathering process associated 
with that investigation. Similarly, it would be inappropriate 
for me to discuss the Attorney General's recent decision not to 
appoint a special counsel to handle certain matters involving 
the Vice President since the underlying matters continue to be 
subject of pending criminal investigation.
    At this point, I would be happy to answer questions from 
the committee. Thank you.
    Mr. Burton. Thank you, Mr. Gershel.
    [The prepared statement of Mr. Gershel follows:]

    [GRAPHIC] [TIFF OMITTED] T4496.230
    
    [GRAPHIC] [TIFF OMITTED] T4496.254
    
    [GRAPHIC] [TIFF OMITTED] T4496.231
    
    [GRAPHIC] [TIFF OMITTED] T4496.232
    
    Mr. Burton. On September 18th of this year, I wrote to the 
Attorney General and asked for information regarding the 
staffing levels on the Justice Department's e-mail 
investigation. You declined to answer that question in your 
opening statement. So let me ask you one more time. How many 
attorneys have worked on the Justice Department's campaign task 
force e-mail matter since its inception, do you know?
    Mr. Gershel. Mr. Chairman, it's been the practice of the 
Department not to comment specifically on numbers of people 
assigned or involved with investigations. I can assure you, 
though, that there have been sufficient resources devoted to 
this investigation.
    Mr. Burton. And in a report in May of this year, the GAO 
reported extensively on the staffing levels in the task force 
investigation. Why would you share that information with the 
GAO and not this committee?
    Mr. Gershel. Mr. Chairman, I had no participation in the 
preparation of the GAO reports. I really can't speak to that 
issue.
    Mr. Burton. You're not familiar with that at all?
    Mr. Gershel. I'm familiar with the report. I was not 
interviewed. I was not part of that process.
    Mr. Burton. Do you think it was wrong for them----
    Mr. Gershel. I have no opinion on that.
    Mr. Burton. You say you can't give us that information but 
GAO got it?
    Mr. Gershel. Mr. Chairman, I am not sure exactly what 
information GAO got or didn't get.
    Mr. Burton. We have heard the task force was using just one 
part-time lawyer to work on this e-mail investigation, and she 
recently quit to spend more time with her family; is that true?
    Mr. Gershel. There was an attorney who was involved with 
this investigation who recently left the task force, that's 
true.
    Mr. Burton. She was a part-time attorney, was she not?
    Mr. Gershel. Yes.
    Mr. Burton. What's the largest number of attorneys who 
worked on the task force e-mail investigation at any one time?
    Mr. Gershel. Mr. Chairman, I can't answer that question. 
People come in and out of the investigation. Work on portions 
of the investigation, components of the investigation, 
contribute in different ways to an investigation. There's no 
one clear-cut answer to that question, and I could not provide 
you with specific numbers assigned to that case.
    Mr. Burton. Just give me a rough idea.
    Mr. Gershel. I can't do that, sir.
    Mr. Burton. How many of the task force lawyers are 
currently assigned to the e-mail investigation?
    Mr. Gershel. Again, Mr. Chairman, I believe I've answered 
the question that I cannot comment specifically on numbers 
assigned to the investigation.
    Mr. Burton. So if I ask you how many were assigned 2 weeks 
ago, you would give me the same answer?
    Mr. Gershel. Yes, sir, I would.
    Mr. Burton. Was the attorney that recently quit the only 
attorney that was working on the e-mail at that time?
    Mr. Gershel. Mr. Chairman, again, various people both at 
the Campaign Financing Task Force and the Office of Independent 
Counsel have been involved in this investigation from its 
inception.
    Mr. Burton. Can you give me a rough idea how much time you 
devote to the e-mail investigation?
    Mr. Gershel. I believe I devote sufficient time to the 
investigation. I participate in the investigation to the extent 
that I'm needed.
    Mr. Burton. Have you made yourself familiar with the basic 
facts of the investigation?
    Mr. Gershel. Yes, sir, I have.
    Mr. Burton. On March 30, 2000, this committee made a 
referral of Daniel Barry to the Justice Department for false 
statements that Barry made in the Filegate lawsuit. Are you 
familiar with the committee's referral?
    Mr. Gershel. Yes, sir, I am.
    Mr. Burton. The committee learned that on August 1, 2000, 
you informed Mr. Barry that he was not a target in the task 
force investigation. Why was that decision made?
    Mr. Gershel. Mr. Chairman, that goes right to a decision 
made in connection with a pending open investigation, and it 
would be inappropriate for me to comment on that.
    Mr. Burton. Did you participate at all in Mr. Barry's 
interview?
    Mr. Gershel. Mr. Chairman, it would be inappropriate to 
indicate who participated in the interview of Mr. Barry.
    Mr. Burton. Well, you signed the letter informing Mr. Barry 
he was not a target. Why did you sign that letter instead of 
Mr. Conrad, who is the head of the task force?
    Mr. Gershel. There was no specific reason why it was signed 
by me as opposed to someone else. I had participated in that 
investigation. I was part of the decisionmaking process, and it 
seemed appropriate under the circumstances for me to sign that 
letter.
    Mr. Burton. Well, there's an exhibit 10 that I want to 
show, because you say you have been intimately involved in this 
and following it from the beginning. There's a letter that you 
signed informing Mr. Barry that he's not the target. If you 
notice, his name isn't even spelled correctly, and it just 
boggles my mind that something of that significance sent to 
somebody wouldn't even--I mean, if you were really familiar 
with it, you would think that you would spell a target, a 
possible target's name correctly.
    [Exhibit 10 follows:]

    [GRAPHIC] [TIFF OMITTED] T4496.255
    
    Mr. Gershel. I certainly apologize if I misspelled Mr. 
Barry's name, but without meaning any disrespect, sir, 
misspelling his name is not indication of my lack of 
familiarity with the investigation.
    Mr. Burton. Did you make the decision that Barry was not a 
target or was this a unilateral decision? Did you make it or 
did somebody else make it?
    Mr. Gershel. Mr. Chairman I am not going to comment upon 
the decisionmaking process as it concerns Mr. Barry's status. 
It is a pending matter.
    Mr. Burton. Yesterday you did ask for the tapes that we 
have, the original tapes of the White House meeting in 
December, I think it was 1995, was it not?
    Mr. Gershel. Yes, sir, it was.
    Mr. Burton. You asked for that yesterday. Can you just tell 
me, I wrote to you not once, not twice, but three or four times 
about would you like to look at that, have you looked at that 
and we received no response. Can you explain why you didn't 
look at that, didn't pay attention to our correspondence until 
you were subpoenaed, until yesterday? Do you have any idea?
    Mr. Gershel. Mr. Chairman, we always pay attention to your 
correspondence, I can assure you of that.
    Mr. Burton. I am sure of that.
    Mr. Gershel. But second, I think I would like to refer back 
to Mr. Robinson's comments when he testified back on July 20th 
when those questions were raised, and his answer then and my 
answer now would be that we're always happy and interested in 
receiving information from the committee that they believe to 
be relevant to an investigation, and that is why that content--
--
    Mr. Burton. You're probably not going to be able to answer 
this question but it does kind of bother me a little bit. The 
Attorney General said she found no evidence that would involve 
the necessity of an investigation of Vice President Gore, and 
yet this particular issue, these tapes weren't even requested, 
even though we offered them several times to the committee to 
look at before she made that decision. I can't understand why 
that wasn't an integral part of the investigation before she 
made that decision. Do you have any idea why that happened?
    Mr. Gershel. Mr. Chairman, are you asking about which 
decision now?
    Mr. Burton. Well, the decision to say that they should not 
have a special investigator or prosecutor to look into the 
allegations that the Vice President knew about these campaign 
finance coffees and the Hsi Lai temple and other things, 
because this particular tape is relevant to whether or not he 
was aware of and involved with the campaign finance problem 
we're talking about. So why didn't they look at these tapes 
even though we offered them several times before that decision 
was made?
    Mr. Gershel. Again, Mr. Chairman, it's inappropriate for me 
to comment what was looked at and what was not looked at. I 
don't know precisely what the Attorney General looked at and 
what she considered in making her decision concerning the 
special counsel.
    Mr. Burton. She has made her decision. This is my last 
question. She has made her decision and now, finally they're 
going to look at the tapes, and my question is, what if they 
find something wrong? She has already made the decision they're 
not going to investigate. Does that mean they reopen this?
    Mr. Gershel. Mr. Chairman, the Attorney General, from my 
own personal experience in the 10 months I have been here, 
closely follows the investigations of the Campaign Financing 
Task Force. We have regular meetings with her. She is 
interested and involved and engaged in the process, and I have 
no doubt that if there was information that we believed or the 
task force believed was relevant to that decision, that we 
would be comfortable in bringing it to her attention and she 
would evaluate its significance.
    Mr. Burton. Well, I am glad you're looking at it finally.
    Mr. Waxman.
    Mr. Waxman. Thank you, Mr. Chairman. I know you went over 
your time. I think you took around 9 minutes and I hope you 
will allow me extra time if I need it.
    Mr. Gershel, you're a career--are you a political 
appointee?
    Mr. Gershel. No, sir, I am not.
    Mr. Waxman. Are you a career person at Justice?
    Mr. Gershel. I am a career prosecutor. I have been an 
assistant U.S. attorney in the eastern District of Michigan 
since 1980.
    Mr. Waxman. So you have been there during Democratic and 
Republican administrations?
    Mr. Gershel. Both.
    Mr. Waxman. Mr. Burton used pretty blunt language in 
criticizing the Department's e-mail investigation. On March 
27th, the chairman wrote a strongly worded letter to Attorney 
General Reno in which he said that, ``because you and your 
staff are in charge, the proposed investigation is fatally 
flawed.'' And then on March 29th he wrote a letter to Judge 
Royce Lamberth in which he said that the Justice Department 
took no steps to determine whether reports about the e-mail 
problems were true.
    Now, I admit the fact that Chairman Burton's criticizing 
the Department of Justice investigation is not exactly 
newsworthy, but what is particularly unfair about these 
criticisms is that they omit a highly relevant fact: namely, 
that the Department's e-mail investigation has been carried out 
in coordination with the Office of Independent Counsel Robert 
Ray.
    Mr. Gershel, can you confirm for me that the Department's 
e-mail investigation has been carried out in coordination with 
Independent Counsel Ray?
    Mr. Gershel. Yes. We've had a cooperative investigation for 
a number of months now with the Office of Independent Counsel.
    Mr. Waxman. And has the Department impeded or limited the 
scope of Mr. Ray's e-mail investigation?
    Mr. Gershel. Not at all.
    Mr. Waxman. It seems to me that the chairman is being a 
little unfair here. If there are any problems with the criminal 
investigation into the e-mail matter, Independent Counsel Ray 
would seem to share the responsibility. Instead, Chairman 
Burton has chosen to single out the Attorney General without 
even mentioning Mr. Ray. He writes angry letters to the 
Attorney General accusing her of failing to interview so-called 
key witnesses in this e-mail matter, but he fails to mention 
that Independent Counsel Ray has apparently concurred with the 
Department's decisions about whom to interview, and he makes 
you sit in this hot seat here, Mr. Gershel, all by yourself 
without even inviting Mr. Ray to discuss his own e-mail 
investigation before our committee.
    To make things even stranger, Chairman Burton has also 
called repeatedly for the appointment of a special counsel to 
investigate the e-mail matter even though we already have an 
independent counsel looking into the matter.
    Mr. Gershel, can you think of any reason why we need a 
special counsel to investigate a matter that's already been 
investigated by an independent counsel?
    Mr. Gershel. No, sir I can't.
    Mr. Waxman. Now, it seems--a lot seems to be placed on the 
fact that maybe you didn't look at a tape, and as I understand, 
you wrote back saying you're happy to see whatever information 
the committee has. Does that mean--does that mean you didn't 
have the tape or you don't pay attention to the tape or that 
you don't attach the same significance to it, or what does that 
mean?
    Mr. Gershel. I think that what we meant by that letter and 
what we mean when we indicate that we will look at the tape 
means that we're happy to receive evidence from the committee. 
If the committee believes it's something we ought to be looking 
at, we're more than happy to look at it. With respect to what 
we have looked at, what videotapes we have reviewed of various 
coffees, sir, that would be inappropriate at this time for me 
to comment on that, but we will ask, if we haven't already done 
so, for the original videotape in the possession of this 
committee.
    Mr. Waxman. So you, a career prosecutor having been there 
for 20 years under both Republican and Democratic 
administrations, are here in the hot seat because you're not 
willing to tell this committee about the investigation you're 
conducting with the Independent Counsel, and where you are, 
whether you have reached the same conclusions. Or I guess 
basically you're here because you haven't said what the 
chairman wants you to say, and that, I suppose, is that the 
Democrats are bad guys, Gore's no good, everybody's corrupt, 
and that you're impeding an investigation because you don't 
want anybody to know about that.
    Mr. Gershel. This investigation has been ongoing. I have 
been involved in this investigation at different levels. It's 
been my impression, having been a prosecutor for a number of 
years, that this investigation has moved forward thoroughly, 
comprehensively, appropriately, and we have not been hindered 
or obstructed or prevented from looking where we think we need 
to look.
    Mr. Waxman. Do you think that Independent Counsel Ray has 
been pulling his punches in order to protect the Clinton 
administration?
    Mr. Gershel. I don't think so.
    Mr. Waxman. Because I would think that's the conclusion one 
would have to reach with the accusations that are being made 
against the Justice Department.
    Mr. Gershel. I certainly wouldn't want to comment on the 
intentions of the independent counsel, but I will tell you from 
my experience in working with him in his investigation, they 
have been very aggressive and very thorough, just as we have 
been, in the search for the truth.
    Mr. Waxman. Aside from misspelling a man's name, is there 
any other besmirch on your record of integrity and honesty and 
good spelling----
    Mr. Gershel. I would hope not.
    Mr. Waxman [continuing]. That this committee should know 
about?
    Mr. Gershel. I would hope not.
    Mr. Waxman. Thank you. Mr. Chairman, I don't know, the red 
light is on. I don't know how much more time I would have. I 
certainly have a lot of other questions but I don't want to 
abuse the time. Oh, I have 2 more minutes.
    Mr. Burton. Sure.
    Mr. Waxman. Well, Chairman Burton issued a series of 
subpoenas to the White House, the Commerce Department, State 
Department, the Democratic National Committee--isn't it great 
you can just issue subpoenas? You can issue them to everybody--
and these subpoenas called for the production of all documents, 
requests, subpoenas and interview requests made by the Justice 
Department's Campaign Financing Task Force as a part of its 
criminal investigation. It is my understanding that the 
Department of Justice has expressed serious concern about the 
committee's use of its subpoena power to shadow its ongoing 
investigation.
    Mr. Gershel, I would like to ask you a few questions about 
the role of a Federal grand jury in criminal investigation and 
the reasons why activities and deliberations of a grand jury 
are kept secret. A grand jury doesn't do its business in open 
court, isn't that correct?
    Mr. Gershel. That's correct.
    Mr. Waxman. And in fact when prosecutors question a witness 
before a grand jury, the witness' attorney isn't even permitted 
in the room, isn't that correct?
    Mr. Gershel. That is correct.
    Mr. Waxman. The Supreme Court has explained a number of 
reasons why a Federal grand jury needs to conduct its business 
in private. One reason is to ensure that people who are accused 
but later exonerated by the grand jury will not be held up to 
public ridicule. Isn't that correct?
    Mr. Gershel. Yes, sir, it is.
    Mr. Waxman. Another reason grand juries operate in secret 
is to protect witnesses from retribution or improper 
inducements and to encourage witnesses to testify fully and 
frankly, correct?
    Mr. Gershel. That is correct.
    Mr. Waxman. Another reason is to allow the individual grand 
jurors to conduct their deliberations without improper 
interference, correct?
    Mr. Gershel. That is correct.
    Mr. Waxman. And another reason grand juries operate in 
secret is to prevent those who are about to be indicted from 
fleeing and escaping justice, isn't that correct?
    Mr. Gershel. Yes, sir, it is.
    Mr. Waxman. So there are many reasons for grand jury 
secrecy, but Chairman Burton, through a series of subpoenas 
issued to the White House and all the others, Justice 
Department and so on and so forth, has tried to look around the 
veil of secrecy surrounding Federal grand juries and use this 
information for his own partisan purposes. In the process I 
believe he's undermining the secrecy of the grand jury 
protections.
    And I see my time has expired. Thank you, Mr. Chairman.
    Mr. Burton. Gentleman's time has expired.
    Mr. Horn.
    Mr. Horn. Thank you, Mr. Chairman. I'm curious. Why can't 
the Department of Justice tell us about the staffing levels for 
the e-mail investigation? Under what authority do you have not 
to tell us about the staffing level?
    Mr. Gershel. Congressman, if you're asking me to give you 
legal authority for that, for my decision not to comment on 
that, I cannot give you that.
    Mr. Horn. Well, whose authority is it?
    Mr. Gershel. It has been my understanding that it has been 
the practice of the Department of Justice, not just with this 
administration but previous administrations, to not comment 
upon specific staffing levels. There are a number of reasons 
for that, including, for example, it may suggest an importance 
or lack of importance with respect to the investigation based 
simply on how many people are assigned to it.
    As I said at the outset, to the extent this committee is 
concerned that the investigation is not proceeding because it 
has inadequate resources, that's simply not the case. There are 
more than adequate resources assigned to this investigation, 
both from the Campaign Financing Task Force and the Office of 
the Independent Counsel.
    Mr. Horn. Does the Attorney General have a memorandum 
anywhere in any policy binder that--which says when you come 
before a congressional committee you're under oath, you're 
asked a question, that you can't sit there unless you're going 
to take the fifth, but it seems to me where is the authority of 
the Attorney General or anyone there to say we don't reveal 
levels of personnel. Does the AG have that? Have you ever read 
it? Have you ever seen it?
    Mr. Gershel. Congressman, I have not seen that but I am 
certainly willing to go back and talk to my superiors, and I'm 
more than happy to get back to you and the committee on that 
specific question.
    Mr. Horn. Well, the facts of life are in this town that if 
you don't have it in either a Presidential Executive order, a 
regulation issued by the Attorney General, you respond to the 
congressional inquiry when we ask a question.
    Mr. Gershel. What I'm trying to explain to you, sir, that 
even if I was comfortable in responding to a question of that 
nature, what makes the question difficult is the fact that at 
any given time the number of people assigned to the case is 
going to vary; moreover because another agency, the Office of 
Independent Counsel is involved, I am not familiar with their 
staffing level. I don't know how many people they assign to the 
case, and it would be pure speculation on my part as to guess 
to that part, but nevertheless they are a key component of this 
investigation.
    Mr. Horn. We were told months ago that one individual part 
time was on the campaign finance investigation. Is that true or 
false?
    Mr. Gershel. Mr. Horn, again--Congressman Horn, again my 
answer is that I cannot--I prefer not to comment. It is 
inappropriate for me to comment on specific numbers assigned to 
the investigation.
    Mr. Burton. Mr. Horn, would the gentleman yield just a 
moment? We think that the Justice Department doesn't have the 
right to refuse to answer this question, and we're prepared to 
hold this hearing open and have you come back under subpoena 
until you answer that question because that question is 
relevant, whether or not we're really getting into this e-mail 
investigation and whether or not the Justice Department is 
serious about it.
    Mr. Horn.
    Mr. Horn. Mr. Chairman, if I might, it seems to me they 
gave the levels to the General Accounting Office.
    Mr. Burton. That's correct.
    Mr. Horn. So I don't know why it can't be given to a body 
of the House of Representatives, and I assume in your 
preparation for this particular hearing that you looked at the 
staffing levels, knowing we would ask it, and then you also 
knew that you would say, oh, sorry, we can't tell you, and I 
think that's pretty bad of this operation but we have known 
that for several years. So why can't you give us the basic 
information?
    Mr. Gershel. Congressman, just so we're clear, it is my 
understanding that the information provided to the GAO was not 
broken down specifically by investigative matter. Rather, the 
GAO was given total and aggregate numbers of the task force 
attorneys assigned to total task force investigations, not 
specifically how many were assigned to the e-mail investigation 
or any other specific, discreet investigation.
    Mr. Horn. Well, I will go back then, Mr. Chairman, if I 
might, if I have time, on this particular videotape where the 
Vice President seems to say, ``We oughta, we oughta, we oughta 
show Mr. Riady the tape, some of the ad tapes,'' and he was 
enthusiastic about it. Then there's a voice that says, ``I'll 
see if I can do that,'' who was obviously a staff member 
following the Vice President around. Now, there have been an 
exchange of letters between this committee and the Department 
of Justice that was sent out by this group, and we explained 
the significance of that statement to the campaign finance 
investigation and we asked you if you wanted the original 
videotape of the event, which we just happened to have. You 
refused to say, you're Assistant Attorney General, you refused 
to say whether you wanted it. We sent letters July 18th, August 
1st, asking if you wanted the original videotape of the event. 
We got no answer. Then yesterday, the day before the hearing, 
and this is where it always happens here, we got a letter from 
the Assistant Attorney General saying that the Justice 
Department wanted the tape. Why did it take so long for the 
Justice Department to ask for this tape?
    Mr. Gershel. Sir, as I have indicated several times now, 
regarding the decision to seek or not seek that tape is not 
something I am prepared to address. I have indicated that we 
are interested and willing and happy and want to review 
evidence that the committee thinks is relevant. We have done 
that. We'll look at it.
    Mr. Burton. Gentleman's time has expired. We'll come back 
to you in just a few minutes.
    Mr. Horn. I am going to have to leave.
    Mr. Burton. Maybe we can yield you some time after Mr. 
Ford.
    Mr. Ford. I yield him 30 seconds.
    Mr. Burton. Without objection.
    Mr. Horn. What worries me, and what always does, is you 
have so many leads out of the White House, out of the Justice 
Department and of course they just downplayed this in terms of 
somebody that's talking down there, and they're the political 
spinners in order to get everybody off the trail or to 
denigrate the evidence and make flamboyant statements and say, 
oh, we did that a year ago, so that isn't for us to think about 
now.
    That's the typical game in this administration. I think it 
is reprehensible. It violates any feeling of ethics and the 
Assistant Attorney General said he thought the leaks at DOJ 
were harmful to the investigation, and, well, whatever happened 
in terms of the DOJ people that denigrated the evidence there 
of that videotape that seemed to be the Vice President of the 
United States? So whatever happened to the people that were 
squealing and trying to run this evidence down?
    Mr. Gershel. Sir, I am going to ask if you wouldn't mind, I 
apologize, but I am not sure I understand the specific question 
you're asking me.
    Mr. Horn. Well, I hope you think about it, and I hope you 
try to get some responses for this committee.
    Mr. Burton. I am sorry you have to leave, Mr. Horn. Thank 
you for your participation. Mr. Ford has graciously said you 
can go ahead, Mr. Gilman.
    Mr. Gilman. I want to thank Mr. Ford and I regret that I 
have another meeting on, but I would like to ask Mr. Gershel 
one question. I am looking at page E-8701, dated February 22, 
1996, 11:43 a.m., from Joel Velasco to Albert Gore, subject, 
Carter Eskew request. ``Carter wants to be able to e-mail you 
from his office. We have some options. Give Carter your special 
e-mail address that Michael Gill had set up earlier or give 
Carter my e-mail or Heather/Liz, and we would forward all e-
mail from Carter to you. You would have to do the same to send 
him e-mail. Reminder, and this is what I would like to ask 
about, all Internet e-mails are recorded on the White House 
computers. According to Michael, the only way not to have your 
e-mails backed up on government computers would be to get a 
Clinton/Gore computer in your office and set it up for private 
e-mails. Question: How would you like to proceed on this?''
    Is this a usual method of avoiding the computer recording 
of these e-mails? I've never heard of this procedure. Have you?
    Mr. Gershel. Congressman Gilman, you're asking me--I'm 
sorry, I missed the citation to what----
    Mr. Gilman. E-8701, dated February 22, 1996, 11:43 a.m. 
What I'm asking about is the reminder that he puts in that e-
mail, all Internet e-mails are recorded on the White House 
computers. According to Michael--I don't know who Michael is, 
Michael Gill, I guess--the only way not to have your e-mails 
backed up on the government computers would be to get a 
Clinton/Gore computer in your office and set it up for private 
e-mails.
    Is that something that's been happening in the White House?
    Mr. Gershel. Congressman, for me to answer the question 
would put me in the position of commenting upon----
    Mr. Gilman. I am just asking about procedure. I don't want 
you to comment. Is this a normal procedure?
    Mr. Gershel. Sir, the question would require me to comment 
regarding the scope and the nature of the investigation and--
but it would be inappropriate for me to do that at this time.
    Mr. Gilman. Well, can you respond to the committee at a 
later date and tell us whether this is a procedure that is 
undertaken in normal events at the White House in order to 
avoid having a computer backup?
    Mr. Gershel. At a subsequent point in time, if it is 
appropriate to respond publicly to your question, we would 
certainly do that.
    Mr. Gilman. Well, Mr. Chairman, I hope that we can get a 
response at a later date. Thank you, Mr. Chairman. I want to 
thank Mr. Ford.
    Mr. Burton. So do I, but don't hold your breath.
    Mr. Ford.
    Mr. Ford. Thank you, Mr. Chairman, and, Mr. Gershel, very 
quickly can you tell me the number of attorneys at the 
Department of Justice that are currently working on 
investigations from police departments around the Nation 
regarding racial profiling? Can you give me the aggregate 
number of--the specific number that are working in the 
Philadelphia Police Department, the New York Police Department, 
the other departments that have been--some concerns have been 
raised about how they treated certain people in their 
communities?
    Mr. Gershel. Congressman Ford, frankly, I have no idea.
    Mr. Ford. OK. In July 2000, Chairman Burton said a 
videotape of a December 15, 1995 coffee at the White House 
indicates that Vice President Gore suggested that DNC 
advertisements be played for a particular Democratic donor. I 
think my friend Mr. Horn was trying to get at that. This 
Democratic donor has been the subject of campaign finance 
probes. According to Chairman Burton, Mr. Gershel, Vice 
President Gore apparently states, ``We oughta, we oughta, we 
oughta'' show this Democratic donor the tapes, ``some of the ad 
tapes.''
    Let me deal with the facts for one moment. I know Chairman 
Burton remembers this, that he played the videotape at a July 
20, 2000 hearing of this committee. However, it was not 
possible to determine what was said on the tape. Further, it 
was impossible to determine to whom the Vice President was 
speaking because he was not on camera during the alleged 
comment and that Reuters reporter describing the playing of the 
videotape at the hearing wrote, ``Gore's muffled words were not 
clear.''
    When Chairman Burton played the tape on Fox television's 
program, Hanity and Combs, the person whose job it is to 
transcribe the show, transcribed the tape excerpt as follows. 
``we oughta, we oughta show that to,'' and it was 
unintelligible here, ``let,'' again unintelligible, ``tapes 
some of the ad tapes,'' again unintelligible, ``just to set the 
record straight.''
    I want to take a moment if I can, Mr. Chairman, and set the 
record straight regarding one Charles Duncan. In March 1999 
Chairman Burton sent a letter to the Department of Justice 
asking the Department to investigate whether Charles Duncan, 
then Associate Director of the Office of Presidential Personnel 
at the White House, made false statements under oath to this 
committee. This referral was part of an unfortunate pattern in 
this committee in which the majority asked the Justice 
Department to consider criminal charges against a witness who 
has provided testimony that is inconsistent with the majority's 
theory.
    In the case of Mr. Duncan, Chairman Burton alleged that Mr. 
Duncan may have made false statements in his answers to 
interrogatories in April 1998. The main basis for the 
chairman's claim is that Mr. Duncan's responses were, 
``irreconcilable'' with notes Mr. Burton's staff took regarding 
unsworn statements purportedly made by another witness, Steve 
Clemons, during a December 1997 interview with the majority 
staff.
    There were serious flaws with the chairman's allegations. 
Mr. Clemons first was interviewed by two junior majority 
attorneys without representation of counsel, and minority staff 
was not invited. Unlike the statements of Mr. Duncan, Mr. 
Clemons' statements were not made under oath. Further, 
immediately after the majority released the majority's staff 
interview notes of the Clemons' interview in February 1998, Mr. 
Clemons issued a public statement noting that he had never seen 
the notes, he had not been given the opportunity to review them 
for accuracy and that, ``the notes have significant 
inaccuracies and misrepresentations'' about the important 
matters which were discussed.
    In addition, the chairman's letter referring Mr. Duncan to 
the Department of Justice failed to mention sworn testimony of 
several other witnesses that supported Mr. Duncan's statement.
    After Mr. Burton wrote the Department of Justice with the 
referral of Mr. Duncan, Mr. Waxman provided the Department of 
Justice with relevant evidence omitted by the chairman's 
letter. I would like to enter this letter into the record.
    [The information referred to follows:]

    [GRAPHIC] [TIFF OMITTED] T4496.232
    
    [GRAPHIC] [TIFF OMITTED] T4496.233
    
    [GRAPHIC] [TIFF OMITTED] T4496.234
    
    [GRAPHIC] [TIFF OMITTED] T4496.235
    
    [GRAPHIC] [TIFF OMITTED] T4496.236
    
    [GRAPHIC] [TIFF OMITTED] T4496.237
    
    [GRAPHIC] [TIFF OMITTED] T4496.238
    
    Mr. Ford. Mr. Waxman wrote to the Department of Justice on 
this matter because the chairman's allegations were tantamount 
to a smear on Mr. Duncan's representation. Mr. Duncan's public 
service has spanned several administrations and his reputation 
was untarnished until the chairman's letter. I believe the 
majority should be embarrassed about making a referral based on 
such flimsy evidence.
    Mr. Gershel, could you comment on the status, if you 
wouldn't mind, of the Justice Department's consideration of the 
chairman's referral on Mr. Duncan?
    Mr. Gershel. Congressman Ford, as I indicated at the 
outset, perhaps you weren't present at the time the--I did----
    Mr. Ford. Forgive me, I am sorry. Excuse me for not being 
here.
    Mr. Gershel. And I had to do some checking on that. It 
predated my coming down here to Washington, and I have learned 
that matter is a closed matter. Attempts to interview a crucial 
witness were unsuccessful and it was determined that the 
investigation would be closed.
    Mr. Ford. Thank you. There are just 2 weeks left in the 
106th Congress, Mr. Gershel, which you probably are aware of 
and I'm sure the people around this country are, and I deeply 
regret that we have so little time to help seniors afford their 
prescription drugs, pass the patient's bill of rights and hire 
more teachers, and rebuild schools or even raise the minimum 
wage.
    I would just call on my chairman, let's end the personal 
attacks, the partisan warfare, even the political witch hunts. 
Let's stop issuing and threatening to issue subpoenas and start 
writing laws. Let's end this partisan charade and get back to 
the work that our constituents sent us here to do. Even if we 
can't do that, let's at least end the partisan witch hunt and 
get out and campaign for the candidates we care deeply about 
and we believe ought to run this country.
    We could certainly spend our time a little better than 
we're doing here, Mr. Chairman, and I want to thank Mr. Gershel 
and apologize to him again on behalf of all of us on this 
committee. Even if the people on the other side don't have the 
will to say they apologize, I apologize for calling you up here 
today to have you answer the questions that you have answered.
    And if you could get back to me also on the number of 
people you have investigating some of this racial profiling. 
We've not held one hearing on that in this committee, I might 
add, although we've heard from around the country an outcry for 
some work on this. I would hope that my chairman would at some 
point be willing to hold a hearing to address these issues. 
Perhaps you can come back and comment on that as well.
    With that, I have no time to yield back. I thank the 
chairman for the time.
    Mr. Burton. We'll be very happy to receive that kind of 
information, and I have not yet received a request for a racial 
profiling hearing that I know of, but we will be happy to look 
into that. As a matter of fact, I think Mr. Cummings yesterday 
had a hearing on Monday on the problems with cancer not being 
properly tracked as far as minorities are concerned, and we 
acceded to his wishes to have the hearing on Monday. We'll be 
happy to do that for you, too.
    Let me just ask a few other questions. First of all, in 
response to Mr. Waxman, I think you know that an independent 
counsel-raised investigation is limited. A lot of the things 
that we're talking about in the e-mail investigation Mr. Ray 
does not have any jurisdiction over. Sometimes I wish he did 
but he doesn't, and so the limited part of the overall 
investigations that are taking place that Mr. Ray has 
jurisdiction over, you may be working with him on, I don't 
know, but I can tell you that a lot of things we've asked, in 
my opinion, in other parts of the campaign finance 
investigation scandal, the moneys have been returned, whether 
or not the President and the Vice President were involved, and 
so forth, we have not received the kind of cooperation that I 
think we need, and I think it needs to be put in the record 
that Mr. Ray, Independent Counsel Ray's jurisdiction is limited 
and you would agree with that, wouldn't you?
    Mr. Gershel. Yes.
    Mr. Burton. Thank you. Would you please look at exhibit No. 
1? That's a set of e-mails that were produced to the committee 
by the White House last Friday afternoon. In his cover letter 
accompanying the production the Senior Associate Counsel to the 
President stated that these e-mails were reconstructed from 
backup tapes by the FBI working in conjunction with the 
Campaign Financing Task Force and the Office of the Independent 
Counsel.
    Is that correct?
    Mr. Gershel. Can I just have one moment to sort of read 
this.
    Mr. Burton. Sure.
    Mr. Ford. Mr. Chairman, while he does that, it was a $52 
million limited investigation that you referred to Mr. Ray and 
Mr. Fisk, and I believe that in my district is a lot of money, 
but that was a $52 million limited investigation that taxpayers 
paid for without a single charge being brought against the 
President and the First Lady.
    Mr. Burton. I think you're probably correct. There were, I 
think, 14 people indicted and convicted, however, but you're 
right, there were some limitations on how far the investigation 
went.
    Anyhow, go ahead, Mr. Gershel. Did you have a chance to 
look at that?
    Mr. Gershel. Yes, sir, thank you.
    Mr. Burton. Did you get my question?
    Mr. Gershel. Sorry.
    Mr. Burton. Let me go through it again. That set of e-mails 
were produced to the committee by the White House last Friday. 
In his cover letter accompanying the production the Senior 
Associate Counsel to the President stated that these e-mails 
were reconstructed from backup tapes by the FBI working in 
conjunction with the Campaign Finance Task Force and the Office 
of Independent Counsel, is that correct?
    Mr. Gershel. Yes, that's correct.
    Mr. Burton. When did the White House provide the backup 
tapes for these e-mails to the FBI?
    Mr. Gershel. Sir, to answer that question, you would be 
asking me to comment on a pending matter that is before the 
grand jury at this time, and I cannot do that.
    Mr. Burton. You mean just knowing when they were produced, 
when the White House gave those backup tapes to the FBI, I 
mean, that's going to impinge on an investigation--a grand 
jury?
    Mr. Gershel. My response to that question would be 
commenting upon an open pending grand jury investigation and it 
would be inappropriate for me to answer that question.
    Mr. Burton. Well, I fail to see why that would be 
inappropriate because we're just asking the date that the FBI 
got those tapes from the White House. I mean, I don't know how 
that's relevant to a grand jury investigation, but we'll check 
and see if that's something that you should be required to 
answer, and we'll have you back up and ask you about that 
again.
    When did the FBI reconstruct the first e-mails, do you know 
that? And you can't comment on that either probably.
    Mr. Gershel. No. What I will answer for you, if it would be 
helpful to the committee, is to give you some general 
background on the process for the reconstruction, how this 
process came into being, and I'm happy to talk about that in a 
general sense. If that would be helpful to the committee's 
oversight functions, I'm willing to do that.
    Mr. Burton. That's fine and we appreciate that, but we need 
to have some timeframes, because we've been trying to get these 
e-mails for 3 years, as have the Justice Department and the 
independent counsels and our committee, and what we're trying 
to find out is when did the White House provide these backup 
tapes to the FBI, when did the FBI first reconstruct these e-
mails, and we're trying to get a timeframe to see what the 
problem has been for 3 years.
    Mr. Gershel. Let me see if I can provide some helpful 
information to you, Mr. Chairman.
    Mr. Burton. All right.
    Mr. Gershel. The reconstruction process really is the 
result of a, for lack of a better description, a protocol that 
was entered into between the Justice Department, the White 
House and the Office of Independent Counsel. It was done as a 
way to try and expedite the investigation to look for ways to 
review and have access to unrecorded e-mails, which is really 
the focus of the campaign finance investigation. To that end, 
this protocol was entered into which allowed for the submission 
of the backup tapes. It then allowed the FBI through their 
technical experts to begin pulling e-mails off of those tapes. 
There is a process in place. This protocol was entered into in 
June of this year. The reconstruction effort began--first e-
mails began being pulled off of the backup tapes in 
approximately August of this year.
    Mr. Burton. OK. That helps answers some of my questions. So 
it was in August of this year that they started pulling these 
tapes, the information off the backup tapes.
    Mr. Gershel. That's approximately correct, yes, sir.
    Mr. Burton. We were told--in February or March we were told 
that probably in 6 months we would start having a large number 
of these e-mails sent to the committee and the other relevant 
investigations. Now we're finding out that it was in August 
that we--that they started going through and getting 
information off the backup tapes and we've been told that we 
probably wouldn't get a great deal of e-mail information until 
after--until around Thanksgiving, which is well after the 
forthcoming election.
    Mr. Gershel. I'm just unclear as to who made those 
representations to you. As the committee may know, there have 
been technical issues associated with the reconstruction 
process that have been ongoing for some time now. It is through 
this protocol that we've been able, through the FBI expertise 
to actually begin pulling these e-mails off the backup tapes 
and reviewing them for relevancy to our investigation.
    Mr. Burton. Did the FBI use search terms, or teams, to 
search the backup tapes for relevant information?
    Mr. Gershel. Did the FBI use search terms?
    Mr. Burton. Teams--excuse me, I'm correct, did they use 
search terms? Oh, search terms, right, uh-huh.
    Mr. Gershel. Congressman, that would be a question that 
would be asking me to comment upon the scope and the nature and 
the specifics of this investigation, and I'm reluctant to do 
that.
    Mr. Burton. Were the backup tapes searched only for 
information relating to the campaign fundraising in the 
Lewinsky investigations or were they checked for other things?
    Mr. Gershel. That would be my same answer, asking me to 
comment upon an open matter.
    Mr. Burton. Were the tapes searched for information 
relating to the FALN, the terrorist organization, clemency that 
took place or the Babbitt investigation?
    Mr. Gershel. Congressman, same answer. I apologize. I'm not 
trying to be difficult with the chairman, but it is important 
to understand that I'm saying this because it is a grand jury 
matter. My ethical responsibilities prohibit me from commenting 
upon a pending matter, and it would just be wrong for me to do 
that.
    Mr. Burton. How does the Justice Department eliminate 
somebody from an investigation when there's an ongoing grand 
jury investigation taking place? I mean, anybody that is a 
potential suspect, until the grand jury investigation is 
completed and until all of the relevant information is given to 
them, how do they eliminate anybody as a possible suspect?
    Mr. Gershel. As a general proposition, I will try and 
answer the question.
    Mr. Burton. Yeah, as a general proposition.
    Mr. Gershel. There may be situations, for example, where 
there may be an ongoing grand jury investigation and there may 
be allegations that may involve only one small segment of that 
investigation. That may be a discreet, separate segment that 
will allow the investigators to review that part of the 
investigation, make some determinations, make some decisions, 
make some recommendations as to that part of the investigation 
without compromising the full investigation and allow us to 
make some decisions. For example, it is not unusual in my 
experience for that to happen, and individuals who may have 
begun in the investigation as perhaps a subject of an 
investigation, upon further investigation that may not be the 
case and they end up becoming cooperating witnesses to help us 
with the investigation.
    Mr. Burton. Let me just ask this question, and I will yield 
to my colleagues if they'd like because I don't think we're 
going to get answers to these, and you can maybe pursue some of 
these when you get to your questioning.
    We go back to the tape of this meeting in December 1995. 
Justice was asked by this committee to look at it several 
times. We've gone over this several times today. There is a 
question as to whether or not the Vice President made the 
statement that many believe he made about showing these tapes 
to Mr. Riady, who was a major contributor of illegal campaign 
contributions from Indonesia.
    How can the Justice Department excuse anybody when there's 
an ongoing grand jury investigation, when there's that kind of 
relevant evidence or possible evidence out there that you 
haven't looked at and our committee asked you several times to 
look at it and you did not even ask for it until yesterday? So 
all I'm saying is how can you eliminate someone who is a 
potential target of the investigation when that kind of 
information has not even been looked at by Justice?
    Mr. Gershel. Congressman, if you're asking me again why the 
letter that was sent, signed by me, as well as the letter 
signed by the Office of Independent Counsel to Mr. Barry's 
letter?
    Mr. Burton. I'm talking about the Vice President, and, Ms. 
Reno saying he wasn't going to be investigated.
    Mr. Gershel. Who wasn't going to be investigated?
    Mr. Burton. The Vice President, because that tape was not 
looked at by you. It was not analyzed by experts to see if that 
was exactly what was said, and if it was said, then it is 
important evidence that the grand jury ought to take a look at 
it and you have not looked at it even though we have requested 
you look at it three times.
    Mr. Gershel. Congressman, I believe we're looking at all 
relevant evidence, and again as I've indicated this afternoon, 
steps have been made, if they haven't already been done so, to 
request the tape from the committee. If you believe it is 
relevant evidence, it will be examined.
    Mr. Burton. Mr. Ford, we have votes on the floor. Do you 
want to recess while we go to the floor and vote or do you want 
to proceed now for another 5 minutes?
    Mr. Ford. I just want to set the record straight on the 
issue about the Vice President. You obviously cannot comment, 
Mr. Gershel, with regard to--and we appreciate you following 
the law, somebody in the room is--with regard to the Vice 
President. He still may be covered under some of the questions 
and some of the things that are going on with this grand jury. 
Ms. Reno has just indicated they're not going to appoint an 
independent counsel to look into matters.
    Is that--I think the American people, including this 
American, is lost in the train of questioning here. Again I 
think you have theories on the other side that for whatever 
reason the Justice Department has decided--after looking at the 
facts and the law decided not to pursue the course my friends 
on the other side would like you to pursue.
    So if you would just sort of clarify that for me because I 
think there's--the record is a little confused, and perhaps 
that's the purpose of this hearing, but if you wouldn't mind 
clarifying that for me and I think for the few Americans that 
may be watching this.
    Mr. Gershel. Congressman Ford, the Attorney General's 
decision with respect to the appointment of a special counsel 
is a matter of public record. She made public statements about 
that. As I've indicated, in the course of our investigation, if 
there's information that develops that we, the Campaign 
Financing Task Force or any other investigators, believe is 
relevant to that decision, I would not hesitate for a moment 
nor would anybody else feel any reluctance to speak with the 
Attorney General and advise her of that and make whatever 
decisions and recommendations are appropriate. We've never been 
prohibited from having that kind of access or having that kind 
of ability to share investigative information with the Attorney 
General, and I expect that to continue.
    Mr. Ford. Thank you, Mr. Gershel.
    Mr. Burton. Mr. Ford, if you would like, I don't know if 
you're going to come back after the vote, but we do have some 
more questions we want to ask. But the Chair will call a recess 
pending this vote and we'll be back as quickly as possible.
    [Recess.]
    Mr. Burton. We will reconvene. I apologize, Mr. Gershel, 
for being gone so long, but getting off that floor sometimes is 
very difficult. We will try to expedite on the rest of the 
hearing so you can get under way.
    Counsel is recognized.
    Mr. Wilson. It is almost goodnight, but good afternoon.
    Mr. Gershel. Good afternoon, Mr. Wilson.
    Mr. Wilson. Let me make sure I start my time so I don't go 
on for too many hours.
    Going back to the search term issue that we were talking 
about before, you were asked the question about what search 
terms were used that ultimately led to the production of 
documents to us last week. There is a little bit of a 
difficulty understanding why you can't provide to us the search 
terms that were used. For example, the committee has an 
interest in documents that were subpoenaed relating to pardon 
FALN terrorists. Unless we're sadly mistaken, we're not aware 
of a criminal investigation of the President's decision to 
pardon FALN terrorists. So there is no ongoing investigation. 
There is no grand jury process for that issue. So if you could 
try and explain to us so we can understand a little better why 
you can't provide any information about search terms.
    Mr. Gershel. I suppose the best way to answer the question 
would be to try to answer it in the abstract, if I might, and 
see if this is helpful to you. Without again indicating whether 
or not the e-mails that have been produced thus far pursuant to 
the protocol were done pursuant to a search term, I would 
indicate, though, that hypothetically if I were to provide you 
with search terms that were used as part of the reconstruction 
process, I think that it's a fair statement that the disclosure 
of search terms would, in fact, disclose the nature of the 
investigations. Search terms they use for a particular reason 
and a particular purpose, and the disclosure of those would, in 
fact, or could perhaps indicate the direction of the 
investigation.
    Mr. Wilson. And that's a fair point, but we know the 
searches have to be done. That's not a negotiatable aspect. The 
committee subpoenaed documents. There was a reservoir of 
documents that was never searched. At some point somebody 
somewhere is going to have to go back and search the documents 
for that which the committee asked for a year ago, 2 years ago, 
3 years ago. So what we're trying to do is get a sense of 
whether that process has started or not.
    Maybe it would be easy--maybe you could be in a position at 
some point to say it just hasn't started. Are you able to say 
that?
    Mr. Gershel. I'm not sure I follow the question. As you 
know, certainly the search of the backup tapes has obviously 
started by virtue of the fact that we now have, all of us, in 
front of us a package of e-mails. That's the fruits of the 
beginning of the process, which I indicated to the chairman 
began this summer. So that process is ongoing, and as we've 
indicated before, the focus of the Justice Department's 
investigation, our portion of the investigation, is to 
determine whether or not our previously issued subpoenas had 
been complied with, and whether or not there had been any 
obstruction of justice with respect to the nonproduction of any 
relevant e-mails. That's really been the focus of our 
investigation, and that's the process we've been going through.
    Mr. Wilson. Right. And maybe you misspoke there, but you 
said the focus of your investigation is to determine whether 
your subpoenas have been complied with. Now, we know one thing. 
You've referred a number of times to the Office of Independent 
Counsel. The Office of Independent Counsel has no jurisdiction 
over matters that we've looked into. So if the Office of 
Independent Counsel were to find a document that said we are 
purposefully obstructing the committee's investigation of the 
clemency issue, the Office of Independent Counsel is in no 
different position than anybody in this room. They can provide 
the information to somebody else, but they can't go out and 
take people before the grand jury and investigate that matter.
    Now, you just stated very clearly that your interest in the 
Campaign Financing Task Force investigation of the e-mail 
matter was determining whether your subpoenas were complied 
with. Who is trying to figure out whether our subpoenas were 
complied with?
    Mr. Gershel. Let me be clear. That is certainly a principal 
focus of our investigation, but in the course of the 
investigation, if it's determined that e-mails that were 
relevant to previously issued congressional subpoenas were not 
complied with and is evidence of potential criminality, those 
issues would be looked at. We understand as the Justice 
Department it may be our responsibility at the end of the day 
to look into that and be responsible for investigation and 
prosecution of those matters if that were to occur.
    Mr. Wilson. It doesn't sound like you started doing that. 
Now, we can't say that for a fact because you won't answer the 
question, but we've got two issues here. One, we don't know 
what search terms you're using, so for all we know, you'll 
ignore the congressional interest, and it's not just this 
committee, it's a number of committees. That's the first point.
    And the second point, we brought up a very legitimate 
question about manpower. This is not a small undertaking. We've 
had a number of staff working for 6 months trying to determine 
certain things, and it's our understanding--you can say that 
people come in and out of the investigation, but continuity is 
important, and full-time employees are important. We're under 
the understanding that one part-time person was working full 
time on the criminal e-mail investigation, and that person has 
left. And you are sitting here today not answering with any 
clarity that question, or maybe I should phrase it you're not 
putting that concern to rest. And----
    Mr. Gershel. All I can say, and I would hope that this 
would satisfy the concerns that you and the committee have, is 
that please don't assume because one attorney may have left the 
task force, who happened to have been a part-time attorney, who 
may have been assigned to the investigation, that because of 
that individual's departure, the investigation is not being 
worked thoroughly and aggressively and appropriately. It is 
simply not the case.
    Mr. Wilson. We understand that. We understand what you say, 
but then again those same words gloss over the fact that the 
Campaign Financing Task Force failed to ask the President a 
single question about foreign money for 3 years. The Campaign 
Financing Task Force failed to ask the Vice President questions 
about Hsi Lai Temple for a number of years.
    So it's all very well for you to sit here and say, we're 
doing our best job, and we're working to get something done on 
this issue, but what we're trying to figure out is if that's 
true or not.
    Now, who made the decision--we gave you the question in 
advance--who made the decision not to answer our question about 
how many employees are working full time on the e-mail matter?
    Mr. Gershel. Who made the decision?
    Mr. Wilson. Who made the decision not to answer this 
committee's question? Is it just you?
    Mr. Gershel. I wouldn't say it was a decision by one 
person. When the information, the letters, came in, it was 
evaluated. I was advised those issues that I could respond to, 
those which may be issues that we would not respond to. For 
example, the second letter has a host of questions that concern 
specifics of the e-mail investigation. That's an open matter.
    Mr. Wilson. Very well. We understand that, but this is very 
clear. We've got this GAO report. It talks about staffing 
levels. You attempted to set up a distinction here, but it 
sounds like you were instructed not to answer this question. 
Who instructed you not to answer this question?
    Mr. Gershel. It wasn't a specific person that I can recall 
that said, Mr. Wilson, do not answer that question. I was 
advised in the course of preparing for my hearing, my 
testimony, this afternoon this has been the practice, the 
longstanding practice, of the Department. To the extent I can 
provide the committee with aggregate numbers, total numbers, 
and the task force currently assigned--that are in the task 
force working on campaign investigation, I can do that.
    Mr. Burton. Mr. Gershel, if you would let me just say that 
this is something we really want an answer to. And I don't want 
to impede your ability to do your job by dragging you up here 
under subpoena, but we intend to find out if there really is a 
concerted effort by the Justice Department to look into the e-
mail matter. We have been after this now for 3 years. We were 
told early in the year we would see some of this expedited, and 
we can't even find how many attorneys you have working on this 
thing over there. We've been told that there was one part-time 
attorney working on the e-mail thing, which is totally 
insufficient.
    You also started talking about Mr. Ray and his independent 
investigation, and that may cover part of it, but we're talking 
about the campaign finance scandal, the FALN, the Babbitt 
matter, a whole host of things that may be relevant to what 
we've been investigating up here, and we need to know how many 
people were working on the investigation.
    We're going to keep after this until we find out. And I'm 
not talking about how many worked for Mr. Ray or other 
independent counsels. I'm talking about the Justice Department 
and the task force itself. How many people did they have 
working on this investigation?
    Mr. Gershel. Mr. Chairman, as I believe I indicated in 
response to this line of questioning from Congressman Horn, 
that I indicated that I would go back to the Department of 
Justice. I will attempt to discuss this issue and see whether 
or not the information can be provided to you. I will ask you 
to accept that at face value. I assure you that we would 
respond back to you, but I'm just not prepared to do that 
today.
    Mr. Burton. Let me just say that I don't know whether a 
contempt of Congress citation would do anything at the Justice 
Department. We have one that is pending before the Congress 
right now. We are probably going to issue that contempt 
citation and take it to the floor, and it is probably going to 
pass. And if you don't answer this question, and if the Justice 
Department--this does not bear on any grand jury 
investigation--I will not hesitate to move a contempt citation 
and take it to the floor here at the end, because I think this 
is very important. We need to know whether or not the Justice 
Department was serious in getting the e-mail information to the 
relevant committees and the other independent counsels. We 
don't believe they were, and we just want to know.
    So I just want you to know we expect an answer to that 
question, and we will give you some time to do it, but if we 
don't--you know, I want you to know the consequences. And if 
this Justice Department does not move on a contempt citation, 
rest assured if we keep the majority and I'm chairman next 
time, we will bring it up next year.
    Mr. Wilson. Just to add a real-world component to this 
discussion about how many people you have working on the 
issue----
    Mr. Barr. Would the counsel yield?
    Mr. Wilson. Yes.
    Mr. Barr. Mr. Gershel, what is the thinking behind or the 
rationale behind not wanting to disclose those figures? That's 
something new to me. It doesn't have to do with, as the 
chairman said, the specifics of a grand jury investigation or 
improperly disclosed prosecutorial strategy or tactics. Do you 
see any reason why that information should not be made 
available to the Congress as the stewards of public resources 
and as the appropriators for the funds that are used by the 
Department of Justice to handle all investigations?
    Mr. Gershel. Mr. Barr, I understand the question. It 
certainly, as a general proposition, probably does not 
implicate grand jury secrecy rules. I accept that as a 
proposition ordinarily. I think one of the concerns may be 
perhaps that assuming for the moment that the question can be 
answered precisely, and earlier on in my testimony I tried to 
explain why it is difficult to pin down a specific number at a 
specific point in time, but putting that aside, a suggestion of 
a total number of agents or prosecutors asigned to a case may 
suggest an importance or lack of importance that may be 
inappropriate.
    Mr. Barr [presiding]. That's sort of precisely the point. 
We want to know whether there is importance or lack of 
importance attached to this, and the only way--one of the 
indices that we have for that is what resources is the 
Department devoting to the investigation. I would presume we 
would agree that that is relevant information for Congress to 
have. Would you agree with that proposition?
    Mr. Gershel. I have heard the chairman's message loud and 
clear. I will take that information back. I will do what I can 
to try to respond to the committee's question. That's really 
the best I can do under the circumstances at this time, except 
to assure you that we will respond back to this committee.
    Mr. Barr. Do you see any reason why Congress should not 
have that information?
    Mr. Gershel. Mr. Barr, I don't know. I don't have a 
longstanding history down here in Washington. I have no 
experience, frankly, testifying about----
    Mr. Barr. How about just a history of how our 
representative form of government works? How about based on 
that do you see any reason why Congress should not have that 
information?
    Mr. Gershel. I can't think of reasons off the top of my 
head. I can't answer that question either way. I am doing the 
best that I can.
    Mr. Wilson. I will move on to another subject, but just 
before I do, I want to put this in a real-world context because 
it is not just some academic concern for us. We interview many 
people, and one of the questions we ask is, have you ever been 
talked to by the Department of Justice either Campaign 
Financing Task Force or Office of Independent Counsel. The 
answer is frequently no. It is disturbingly no in many 
situations.
    Let's really get into a real-world situation here. There 
were some problems with representations prepared for Tony Barry 
by Department of Justice lawyers. A couple of weeks ago an 
assistant to the President said they were false. We submitted 
many months ago a referral pointing out that Mr. Barry's 
representations were false. They were prepared by Department of 
Justice lawyers. There doesn't seem to be an awful lot of 
realistic doubt about that matter. And you wrote a letter to 
Tony Barry, and you basically let him off the hook. You said 
he's not a target of the investigation. Now, aside from the 
fact that you couldn't even spell his name correctly, you had 
not talked to Mark Lindsay, who is the guy, the assistant to 
the President, who said his statement was false. And it strikes 
us as a little bit odd that you may not have enough people on 
the case to do the interviews. That's the first thing.
    But the second thing is it is the same frustration we feel 
with failure to ask pertinent questions about major campaign 
finance issues. If you wait 2 or 3 or 4 years, that doesn't 
seem to be an appropriate investigative tactic to take. Now, 
everybody's got their own process to follow, but here we're 
just trying to understand what yours is. So we will hopefully 
hold this hearing open, and we can have you come back, and we 
can ask that question at a different time.
    Mr. Gershel. Can I just make a brief response to that 
comment, please, Mr. Wilson?
    Mr. Wilson. Absolutely.
    Mr. Gershel. I just want to say two things. First of all, 
again, so we're clear, the nontarget letter to Mr. Barry was 
issued both by of the Campaign Financing Task Force and Office 
of Independent Counsel, No. 1. No. 2, as you certainly well 
know, a nontarget letter is not a letter of immunity, is not a 
promise of nonprosecution, and that it is what it is. I mean, 
it does not promise that if the situation changes or other 
evidence develops, that that label might, in fact, not change 
at some point in time. I'm not saying that's the case here with 
Mr. Barry, but, please, I want to be clear that he's not an 
immunized witness, and that designation was a joint designation 
by both the campaign task force and the Office of Independent 
Counsel.
    Mr. Wilson. We understand that, but if I were Mr. Barry's 
legal counsel, I would rather have a nontarget letter than an 
aggressive approach indicating that you might prosecute their 
client. So it cuts both ways.
    But I want to get to another subject that hasn't been 
addressed at all and that's--it's a rather complex one, but 
it's the issue of subpoenas that we have issued to entities 
that the Department of Justice seems to be blocking. Now, I've 
read your testimony and I understand what you say. I have a few 
questions about that. Within the last several months the 
committee has issued subpoenas to a number of agencies and 
entities calling for document requests and subpoenas served on 
them by the task force. Now it's obvious what we're doing. 
We're trying to find out what questions you've asked them. The 
first two subpoenas were directed to the White House and the 
Commerce Department and they were honored. There was no 
interference whatsoever by the Department of Justice. Why has 
the Department of Justice treated the subpoenas that we issued 
to the Commerce Department and the White House different than 
ones that we sent to the DNC and the State Department? Why the 
disparate treatment?
    Mr. Gershel. Perhaps the best way to answer it would be to 
indicate to you that as to the State Department and the 
Commerce Department as sister agencies to the Department of 
Justice, given the longstanding practice, it seemed appropriate 
not to obstruct this committee's investigation, not to obstruct 
in compliance with their subpoenas, but to be sure that 
information that was being accumulated, that is, information 
that was originated with the Department of Justice and that may 
have contained sensitive information, was treated 
appropriately. It is true the Commerce Department has released 
information. Frankly, we would have preferred that we would 
have received a phone call and would have had a chance to 
review that information. Since then, there has been some 
contact with the Commerce Department on some followup, as I 
understand it.
    As to the DNC, it is my understanding that they're not 
viewed as a government agency per se, and the White House chose 
to respond directly to the committee. But as to the agencies 
involving the State Department and the Commerce Department, we 
are in contact with them.
    Mr. Wilson. Now, if you had concerns about the response to 
our subpoena somehow impeding or impinging upon your 
investigation, why did you not come to us with those specific 
concerns? Let me put that in the context of when we interviewed 
Johnny Chung over a year ago. There were some very real 
concerns at the Department of Justice that Mr. Chung would 
provide information that would touch upon ongoing aspects of 
the campaign finance investigation, and the Department of 
Justice came to us and said, please do not go into these 
matters, and we did not. And to this day, even though we asked 
4 or 5 months ago, I believe, for a list of what we can go into 
now, and that list has been not provided to us, we operated in 
good faith and we negotiated with the Department of Justice and 
we did exactly what you said.
    Why not treat these subpoenas in precisely the same way? 
There are many, many, many issues that are asked about in the 
subpoenas that are not any product of an ongoing investigation 
or any part of an ongoing investigation.
    Mr. Gershel. I can't speak to the Johnny Chung matter. I 
have no knowledge of that. I'm not familiar with it. I was a 
nonparticipant in that, so I have no basis of comparison as to 
that matter. I can only speak to my understanding of the 
practices that concern subpoenas to third agencies; not to 
preclude, not to prevent, not to obstruct them from complying 
with those subpoenas by giving you, the committee, their own 
documents. The concern rests with documents that we may have 
provided to agencies as part of perhaps some request. That's 
the information that we're looking at. If you believe in future 
subpoenas that it would be helpful and productive for us to 
engage in this kind of dialog, I'm happy to do that, and I 
believe that others would be as well. I will take that back 
with me.
    Mr. Wilson. Well, what I believe is that we should have 
done that maybe 2 months ago instead of going through all of 
the process that we've gone through to get to a rather absurd 
response. The response that we've ultimately gotten to our 
subpoenas are pages that are completely blacked out, they're 
redacted, so we get nothing whatsoever, and I can't represent 
to you with certainty--well, I can represent to you with 
certainty on some of the issues there is nothing happening in 
the Department of Justice, as far as we can tell, that would 
impact an ongoing criminal investigation. In one case, you 
block out Liu Chaoying's name. In another case you don't redact 
Liu Chaoying's name.
    We don't understand, given that you allowed us to ask 
Johnny Chung questions, unrestricted questions about Liu 
Chaoying, how you can now take the position that if we know 
that you asked an agency about Liu Chaoying, that somehow 
impacts your ongoing investigation. Is there not a failure of 
intellectual consistency there?
    Mr. Gershel. The decision was made. The belief was that at 
least as to that matter, disclosing it would impact and would 
affect an ongoing investigation.
    Mr. Wilson. So it was OK for us to ask how about Liu 
Chaoying a year ago when we questioned Johnny Chung who 
actually had information about Liu Chaoying, but when we send a 
subpoena off to an agency that may not have any information 
about Liu Chaoying, we can't even know that the Department of 
Justice asked about Liu Chaoying. That is the position you're 
now taking.
    Mr. Gershel. No, Mr. Wilson, you're asking me to use as a 
benchmark an issue that I'm not familiar with, and that puts me 
in a difficult situation because I can't respond to your 
question in a way that's going to satisfy you. I don't know 
what happened a year ago. I'm trying to engage in this practice 
as honestly and as completely and as appropriately as I can 
under the circumstances. That's why this was done. I cannot 
take this situation and compare it a year ago to the Johnny 
Chung matter.
    Mr. Wilson. Fine, but I just told you what happened a year 
ago. A year ago, the Department of Justice allowed this 
committee unfettered questioning of one of the witnesses that 
you had used in the campaign finance investigation. They 
allowed us unfettered questioning of Johnny Chung. They allowed 
us to ask questions about Liu Chaoying. Now, all of the sudden, 
something's changed. Now, it would be one thing if somebody had 
come to us and said there is now new information and an ongoing 
investigation, but that doesn't appear to be the case. You just 
seem to want us to not have the information.
    Mr. Burton [presiding]. I think Representative Barr would 
like to ask a question.
    Mr. Barr. If I could, Mr. Chairman. This stack of e-mails, 
Mr. Gershel, are you familiar with them, the ones that came in 
to us I think on Friday?
    Mr. Gershel. Yes, sir.
    Mr. Barr. I had a couple of questions. I was just going 
through them here. There is one dated March 5, 1996 from Ron 
Klain, K-L-A-I-N. It's No. E-8762. Who is Mr. Ron Klain?
    Mr. Gershel. I don't recall at this time who he is, 
Congressman. I certainly know the name.
    Mr. Barr. Pardon?
    Mr. Gershel. I certainly know the name. I don't recall the 
specific position or title.
    Mr. Barr. Is he with the Office of the Vice President?
    Mr. Gershel. That may be correct but I'm not sure.
    Mr. Barr. Who is Elaine Kamarck, K-A-M-A-R-C-K?
    Mr. Gershel. I don't know.
    Mr. Barr. Pardon?
    Mr. Gershel. I don't know.
    Mr. Barr. Is she with the Office of the Vice President?
    Mr. Gershel. I don't know.
    Mr. Barr. Who is Mr. Glicken, G-L-I-C-K-E-N?
    Mr. Gershel. I recognize the name certainly, but I forget 
his exact position or relationship with--if any--with the Vice 
President's Office.
    Mr. Burton. Excuse me, would the gentleman yield? You don't 
know who Howard Glicken is, and you're conversant with the 
investigation into the e-mails of the task force and the 
campaign finance scandal and you don't know who Howard Glicken 
is?
    Mr. Gershel. I've indicated I recognize the name, 
Congressman, but I can't sit here and give you a description of 
him.
    Mr. Barr. Do you know him as a convicted felon?
    Mr. Gershel. I don't know that.
    Mr. Barr. Do you know him as somebody who pled guilty to 
Federal fundraising violations in July 1998?
    Mr. Gershel. I believe that's correct.
    Mr. Barr. Do you know him as somebody who facilitated a 
German national named Thomas Kramer in funneling some $20,000 
to the DNC?
    Mr. Gershel. I don't know that.
    Mr. Barr. Do you know why the Vice President, according to 
this e-mail, would be interested in what seems to be rigging an 
award for Mr. Glicken?
    Mr. Gershel. Congressman, I can't comment on that 
information. This is a pending matter.
    Mr. Barr. What aspect of this e-mail is pending?
    Mr. Gershel. These e-mails have been reconstructed as part 
of a process in the e-mail investigation. It's potential 
evidence in this case, and to comment on that would be 
inappropriate for me to do so.
    Mr. Barr. In other words, the subject matter of this e-mail 
is the subject of an ongoing criminal investigation.
    Mr. Gershel. I'm saying these e-mails are being evaluated 
and being reviewed, and to comment on those e-mails would be 
inappropriate.
    Mr. Barr. I would like to draw your attention to another e-
mail, this one No. E-8862 dated April 23, 1996 from--at the top 
the name is Karen Skelton.
    Mr. Barr. Do you have that one?
    Mr. Gershel. Yes, sir, I do.
    Mr. Barr. Who is Karen Skelton?
    Mr. Gershel. Sir, again you're asking me to comment on 
names, people, their positions, perhaps their relationships. 
That would be inappropriate for me to do at this time.
    Mr. Barr. No, I'm not. This is ridiculous. Who is Karen 
Skelton? I'm not asking you to tell me whether or not she's 
under investigation. I'm not asking you to tell me the details 
of why she might be under investigation. I'm asking you who she 
is. If you don't know who she is, then just say so. Who is she?
    Mr. Gershel. I believe she's an individual associated in 
some capacity with the Office of the Vice President.
    Mr. Barr. That's my understanding as well. Who is Ellen 
Ochs, O-C-H-S?
    Mr. Gershel. I don't know.
    Mr. Barr. Is she associated with the Office of the Vice 
President as well?
    Mr. Gershel. I don't know.
    Mr. Barr. Would it surprise you to learn that she is?
    Mr. Gershel. I wouldn't be surprised either way.
    Mr. Barr. OK. This particular e-mail dated April 23, 1996 
poses the question to Ellen Ochs from Karen Skelton, who you 
have admitted is in the office or was in the Office of the Vice 
President, ``These are FR coffees, right?'' FR Stands for 
fundraisers, correct?
    Mr. Gershel. I don't know what it stands for.
    Mr. Barr. What do you think it stands for?
    Mr. Gershel. Sir, I don't know what it stands for.
    Mr. Barr. You have no idea what it stands for?
    Mr. Gershel. Perhaps it could stand for that, I don't know. 
It would be speculative on my part. And again now you're asking 
me to comment on information that is part of the investigation, 
and with all due respect I'm going to decline to do so.
    Mr. Barr. Has anybody, you or anybody else, made any 
determination as to what FR stands for in the context of these 
e-mails?
    Mr. Gershel. You're asking me a question again, 
Congressman, that is an open matter and I cannot comment on 
that.
    Mr. Barr. You won't even tell us whether you all have even 
conducted the most fundamental inquiries even to determine what 
the terms are that are referenced in the e-mails that you all 
have sent up to us, what those terms stand for or mean?
    Mr. Gershel. No, sir. I didn't say that. If I did, I think 
you misunderstood me. What I'm saying is it would be 
inappropriate for me to comment to you and try to suggest to 
you what the investigation may have learned the meaning of FR. 
You've asked me to speculate, and what I'm suggesting with all 
due respect is that to do that, you're asking me now 
substantive questions about the investigation.
    Mr. Barr. No. The first question I asked was--the second 
question, the specific one on the table before you right now 
is: Has anybody made any sort of inquiry or investigation in 
order to determine what FR means or what it refers to?
    Mr. Gershel. Sir, I'm not going to comment on that.
    Mr. Barr. Would it be as a general investigative matter, an 
important investigative tool, if presented with written 
evidence or electronic evidence that contains terms or 
acronyms, to determine what those terms or acronyms mean?
    Mr. Gershel. As a general rule, aside from this, if we 
receive documents in the course of the investigation that 
contain terms or abbreviations or acronyms or things that are 
not readily apparent, that certainly would be relevant, it 
would be important to ascertain from the appropriate people the 
meaning of those terms.
    Mr. Barr. Are you conducting an investigation of these e-
mails?
    Mr. Gershel. Yes, sir, I have indicated there is an e-mail 
investigation.
    Mr. Barr. So it would be a logical conclusion on our part 
that you all are looking into what the terms mean.
    Mr. Gershel. Specifically, sir, again----
    Mr. Barr. I don't understand this, why you all are fighting 
this, unless you are trying to hide something.
    Mr. Gershel. Congressman, I am not trying to hide the ball 
from you. What I'm trying to do is I'm trying to balance the 
position I find myself in this afternoon, a position where 
there is frustration obviously on your part. I understand that, 
because you are not satisfied with the responses you've gotten 
perhaps from me or from others at the Justice Department.
    I'm also dealing with the tensions that I have and 
responsibilities I have ethically and professionally not to, as 
you know, certainly, to disclose information that may impact or 
disclose investigation, because it would be a violation of 
rules of ethics that I am bound by, that I'm bound by not only 
the statewide practice but under the McDade legislation passed 
by this Congress. I have to be very mindful of that also.
    Mr. Burton. Our time has expired on this side. We will come 
back for further questioning. You are recognized for 30 
minutes.
    Ms. Amerling. Thank you. I am Kristin Amerling, minority 
counsel. I would like to ask a few questions to clarify a 
couple of issues that have come up during today's hearing.
    First, Mr. Gershel, Chairman Burton has suggested 
repeatedly that the Campaign Finance Task Force never reviewed 
the videotape of the December 15 coffee. I may have misheard, 
but my understanding is that you simply said you can't comment 
on whether task force investigators have reviewed the tape. Mr. 
Gershel, would you care to clear this up for the record?
    Mr. Gershel. I guess what I would say, without specifically 
commenting upon whether or not we reviewed the tape, is to 
answer your question by saying, please don't assume by my 
answers earlier this afternoon and by previous answers by other 
officials from the Justice Department that the videotape has or 
has not been looked at.
    Ms. Amerling. I would like to turn to the issue of the 
scope of the Office of Independent Counsel's e-mails 
investigation. Earlier today, Chairman Burton appeared 
interested in trying to establish that the independent counsel 
is conducting a narrow investigation. I'd like to explore this 
issue a little further with you. I understand that the Office 
of Independent Counsel is focused on examining the e-mail 
glitches as they relate to productions to the independent 
counsel. Is that accurate?
    Mr. Gershel. That's correct.
    Ms. Amerling. If that is the case, it's hard to imagine 
that assuming the independent counsel is doing a thorough job, 
there are major issues concerning the e-mails' glitch that the 
independent counsel is not looking at. The main issues this 
committee has been examining are whether Northrop Grumman 
contract employees were threatened to keep quiet about the 
discovery of the e-mail glitches; whether White House counsel 
intentionally concealed e-mail glitches from investigators; and 
whether e-mails relevant to ongoing investigations, including 
e-mails relating to Monica Lewinsky, remain unreviewed. All of 
these issues would be relevant to the independent counsel's 
inquiry into events surrounding e-mail glitches that affected 
production of documents to the independent counsel. The 
independent counsel would have certainly requested e-mails 
relating to Monica Lewinsky. The independent counsel therefore, 
just like this committee, would be concerned about whether 
employees were inappropriately threatened if they didn't remain 
quiet about the glitches; whether White House counsel covered 
up the problems; and whether outstanding relevant documents 
remain unproduced. Mr. Gershel, would you agree with that?
    Mr. Gershel. Yes.
    Ms. Amerling. Thank you. I don't have any further 
questions.
    Mr. Burton. I know that you said that you neither admit to 
seeing the tape that we talked to you about, the December 15, 
1995 tape, but we know since 1997 that you haven't seen that 
tape because the FBI had it and we had it sent to us. So in the 
last 3 years we know you haven't reviewed it, and you just 
asked for it yesterday after we requested that you look at it 
three different times. So I think that needs to be in the 
record. I know you haven't looked at it, because you haven't 
had it.
    Ms. Amerling. I don't have further questions. Thank you.
    Mr. Burton. Do you have further questions?
    Mr. Wilson. I do.
    Mr. Burton. Without objection. He has a few more questions, 
so since there's no other Members, there's no objection, we 
will allow the counsel; and if you have more questions, we will 
give you some more time as well.
    Mr. Wilson. If I could, I wanted to followup on the last 
question because there was some misunderstanding as to what 
precisely you answered in response to counsel's question. Do 
you remember what her question was? Are you able to 
characterize it for us?
    Mr. Gershel. I believe the question had to do with the 
scope of the independent counsel's investigation.
    Mr. Wilson. I thought--I didn't hear all of it, but it 
sounded like the question was that the scope of the independent 
counsel's investigation covered all of the things that this 
committee is interested in in the e-mail investigation. Is that 
a fair characterization?
    Mr. Gershel. Mr. Wilson, again, no disrespect and not 
trying to be cute with you in my answer, the scope and the 
direction and the nature of the independent counsel's 
investigation is really best answered by the independent 
counsel, not by me. I'm not in the best position to evaluate 
what their investigation is. We're working a cooperative 
investigation. We tend to, as we've previously testified to, 
interview many of the same witnesses, look for the same kinds 
of documents. But the question regarding the scope of their 
investigation is really a question that they're better capable 
of answering than I am.
    Mr. Burton. Let me interrupt. There have been occasions 
when we've had an opportunity to talk to Mr. Starr, and 
subsequently to Mr. Ray. And the scope of their investigation 
has been brought up a couple of times during the discussions 
that we've had with them, because we've had an ongoing 
investigation. And it's pretty clear to me what the scope of 
his investigation is and it does not include the campaign 
finance scandal or things related to that. It pertains to the 
Whitewater and the Lewinsky matter. And I think he's pretty 
much stated that publicly and in conferences with Members of 
the Congress, without getting into the details.
    And so I think that needs to be clarified very clearly. The 
scope of his powers in investigation are limited to the 
Lewinsky and the Whitewater investigations. He has not gotten 
any authority that I know of from the Attorney General or the 
court to expand that investigation beyond that. And so what 
we're talking about is the campaign finance investigation, your 
task force, and whether or not the Justice Department is 
aggressively pursuing justice in this matter.
    Mr. Wilson. I just want to followup on that. You just 
stated you're not in the best position to discuss the scope of 
the Office of the Independent Counsel's jurisdiction. But when 
you were asked a direct question about that by minority 
counsel, you gave an opinion. It seemed like it was a 
misrepresentation of their scope. They have a statutory 
limitation in the scope. We know what it is.
    Mr. Gershel. I expressed an opinion. I believe that to be 
accurate. But again you're trying to have me answer with 
precision the scope of their investigation, the areas of 
inquiry. And I cannot do that. I'm uncomfortable doing that. I 
don't know the precise answer to that question. I believe the 
way the question was presented to me, I tried to answer to the 
best of my understanding, and I would answer it the same way 
again. But if there's some doubt about the accuracy of my 
answer, please, you should address those questions to the 
Office of Independent Counsel, Mr. Wilson.
    Mr. Wilson. Well, no. Actually we need to address these 
questions to you, because you're making representations that go 
out to people and try to communicate something to people, and 
they don't appear to be entirely accurate. What you're trying 
to do, it seems, is cloak the investigation. You're trying to 
use the Office of the Independent Counsel to confer some kind 
of legitimacy to the Justice Department investigation.
    Let me ask you a very specific question. Can the Office of 
Independent Counsel address any matters that pertain to the 
decision by Secretary Babbitt to deny a gaming permit to a 
Hudson, WI dog track?
    Mr. Gershel. I don't know the answer to your question. I'm 
not familiar with the jurisdiction of the independent counsel.
    Mr. Wilson. Fair enough. When this all started back in 
March, we made a very specific request for special counsel to 
be appointed. We pointed out that we thought it may not even be 
legally appropriate for there to be a joint investigation 
between the Department of Justice and the Office of Independent 
Counsel. The Department of Justice communicated to us that they 
thought it was because they had looked at the law and fully 
understood the jurisdictional issues here.
    Now, you are the main man in terms of this investigation, 
and you're coming here today and you're telling us you really 
don't have a clue as to what the jurisdictional issues are with 
DOJ and the Office of Independent Counsel. And it seems to us 
that you're probably the one person that should be able to 
clearly say, we can do certain things, they can do certain 
things, and they can't do what we can do, and we can't do what 
they can do. I mean, it seems like you should be the one person 
to explain that to us. Who from the Department of Justice would 
be able to do that?
    Mr. Gershel. I'm not sure. I would have to--I'd have to go 
back and determine that for you. I'm doing the best I can to 
answer your question regarding the jurisdiction of the 
independent counsel.
    Mr. Wilson. OK. Fair enough. Just one bit of followup on a 
line of questioning we were going down a moment ago. We were 
talking about the committee's subpoenas to obtain documents 
from the State Department, the Commerce Department, the White 
House.
    We also subpoenaed the DNC. We asked the DNC for subpoenas 
served upon it by the task force. Now, despite the fact that 
the subpoena was served over 6 weeks ago, the DNC has failed to 
comply because the Department of Justice has prevented it from 
doing so. This was communicated to us today. The DNC, however, 
is either a witness or a target of the Department in this 
investigation.
    Now I am going to read some words that your immediate 
superior, Assistant Attorney General Robinson, spoke at our 
last hearing. He testified under oath,

    Although a prosecutor may prefer that a witness not 
disclose information about a pending case, the government does 
not have any right to dictate who a witness can or cannot talk 
to. Witnesses do not belong to either side of a matter. As a 
matter of due process and prosecutorial ethics, the government 
cannot threaten or intimidate a witness for the purpose of 
preventing a witness from talking to a subject or a target of 
investigation or from exercising their first amendment rights.

    Now, isn't that what the Department of Justice is doing now 
in terms of preventing the DNC from complying with the 
congressional subpoena?
    Mr. Gershel. Absolutely not. The DNC has never been told 
not to comply with this committee's subpoena. To the contrary, 
it's not my understanding. I have not had contact with them. 
It's my understanding they were told to fully comply with the 
subpoena. Even as to our dialog in our discussions with the 
State Department, we have never said, do not comply with the 
subpoena. We simply asked for the courtesy of reviewing the 
information, our documentation, as accumulated before it's 
released.
    We have never suggested that anyone should not comply with 
subpoenas. I recognize the importance and the significance of 
subpoenas. I issue subpoenas. I would like them complied with. 
You issue subpoenas, you want them complied with. What I'm 
trying to explain here is the process by reaching that control. 
But the DNC has never been told not to comply with your 
subpoena, and I state that categorically right now.
    Mr. Wilson. OK. Well, there is confusion coming from them 
to us, and I understand that you have no knowledge of that 
necessarily. So obviously you've been about as unambiguous as 
you can possibly be. The DNC should comply with our subpoena. 
We will expect that. We will ask them to do that when we leave 
the hearing.
    Mr. Burton. Would you be willing, Mr. Gershel, to give us a 
letter to the effect that you urge compliance with our 
subpoenas by the DNC; that there's no objection from the 
Justice Department that there be a compliance. I'm not sure 
that should be necessary, but I want to make sure that they 
know over at the DNC, or the RNC for that matter, if we're 
asking for something, that the Justice Department fully expects 
them to comply with subpoenas that are lawfully issued by the 
Congress.
    Mr. Gershel. Chairman, may I have 1 minute to confer with 
my peers, please?
    Mr. Burton. Sure.
    Mr. Gershel. Thank you.
    [Discussion off the record.]
    Mr. Gershel. Mr. Chairman, I thank you. We've conferred and 
we will prepare a letter that I think will satisfy this 
committee.
    Mr. Burton. Thank you very much.
    Mr. Wilson. OK. At this time I will wrap it up. The last 
couple of questions. We got into this a little earlier. The 
Attorney General made a very clear statement on August 23rd. 
She said, ``I have concluded there is no reasonable possibility 
that the further investigation could develop evidence that 
would support the filing of charges for making a willful false 
statement.''
    On Friday we got a new stack of e-mails. Can you tell us 
one way or another whether the Attorney General had all the e-
mails we got last week when she made her pronouncement on 
August 23?
    Mr. Gershel. Mr. Wilson, I can't comment specifically on 
what she had or didn't have in front of her. What I can tell 
you is what I believe I testified to earlier this afternoon; 
that in the course of this investigation as e-mails are 
reconstructed from the backup tapes, if there's information 
that we believe is relevant to a reevaluation or 
reconsideration of that decision, we would not be hesitant to 
bring that information to her information. But specifically 
what she had in front of her when that decision was made, I 
can't respond to that because I'm not in a position to know.
    Mr. Wilson. Fair enough. Let me provide some information to 
take to her attention. It appears that Karen Skelton, the 
author of some of the e-mails we got, the person who talks 
about the FR, the fundraisings, it appears that she was the 
Vice President's political director, one of his most senior 
staff.
    We got a letter from the White House today, and they say to 
the best of their knowledge Karen Skelton has never been 
interviewed. Now, we have also have a list of the 302s that the 
Department of Justice has compiled. Karen Skelton's name is not 
on that. It seems to me that if you were making a determination 
of the veracity or lack thereof of statements by an individual, 
you would talk to the person who was there, one of their senior 
political advisors and the author of documents that are of 
extraordinary probative importance to this matter. So I mean, I 
guess we can provide to you now the name of Karen Skelton. Can 
you tell us now, has Karen Skelton ever been interviewed by the 
task force?
    Mr. Gershel. I can't comment on that.
    Mr. Wilson. There was a fair indication earlier--we asked 
if you knew who she was, and you'd never heard of her.
    Mr. Gershel. It would be inappropriate for me to comment at 
this point in time whether or not she has been interviewed or 
will be interviewed. I appreciate the points you've made. I 
will take that under consideration with respect to the 
investigation, the importance of her.
    Mr. Wilson. I appreciate your points, but earlier you said 
you'd never even heard of her.
    Mr. Gershel. I didn't say that. If I did, I misspoke.
    Mr. Wilson. Well, Mr. Barr asked you if you knew who she 
was and you said no.
    Mr. Gershel. I don't believe that was my answer.
    Mr. Wilson. Those are all my questions.
    Mr. Burton. Does the minority have any further questions?
    I want to make sure we're clear on that for the record. Did 
you say that you knew that she did work for the Vice President, 
the lady in question?
    Mr. Gershel. Mr. Chairman, it's my recollection, I believe 
my answer was that I believe she worked for the Vice President, 
was associated with the Office of Vice President. I believe 
that was my answer.
    Mr. Burton. We'll check the record. But if the statement by 
majority counsel was not accurate on that, we will correct that 
for the record. But we will check the record and go back on 
that.
    Mr. Wilson. And if I did misspeak, I do apologize for that.
    Mr. Gershel. Thank you.
    Mr. Burton. Let's say I know, Mr. Gershel, we're winding 
this thing up now, I know you and the people at the Justice 
Department look at this committee, and probably the chairman in 
particular, with a great deal of consternation, and I 
understand that. I want you to know that we really just want to 
get the facts out to the American people and bring those people 
who break the law to justice.
    We have had the opinion, hopefully I'm wrong, but I've been 
of the opinion that the Justice Department has not been as 
diligent as they should be in pursuing some people because of 
their position in this government and bringing them to justice. 
I hope that I'm incorrect. But we'll continue to pursue this, 
and hopefully we can work together to reach some conclusions 
instead of being in an adversarial situation. I don't like that 
anymore than you guys do.
    Mr. Gershel. Mr. Chairman, I think our goals are probably 
one and the same: the achievement of justice. And I should 
indicate that I am a career prosecutor. I'm not a political 
appointee. I do the job the best way I can, as thoroughly as I 
can without regards to who it is that we're looking at. And I 
just needed to say that.
    Mr. Burton. OK. Thank you very much. We will be back in 
touch with you. We stand adjourned.
    [Whereupon, at 5:50 p.m., the committee was adjourned.]
    [The prepared statement of Hon. Helen Chenoweth-Hage and 
the information referred to follow:]

[GRAPHIC] [TIFF OMITTED] T4496.240

[GRAPHIC] [TIFF OMITTED] T4496.241

[GRAPHIC] [TIFF OMITTED] T4496.242

[GRAPHIC] [TIFF OMITTED] T4496.243

[GRAPHIC] [TIFF OMITTED] T4496.244

[GRAPHIC] [TIFF OMITTED] T4496.245

[GRAPHIC] [TIFF OMITTED] T4496.246

[GRAPHIC] [TIFF OMITTED] T4496.247

[GRAPHIC] [TIFF OMITTED] T4496.248

[GRAPHIC] [TIFF OMITTED] T4496.249

[GRAPHIC] [TIFF OMITTED] T4496.250

[GRAPHIC] [TIFF OMITTED] T4496.251

[GRAPHIC] [TIFF OMITTED] T4496.252

[GRAPHIC] [TIFF OMITTED] T4496.253

                                 <all>

</pre></body></html>
